<html>
<title> - THE 287(G) PROGRAM: ENSURING THE INTEGRITY OF AMERICA'S BORDER SECURITY SYSTEM THROUGH FEDERAL-STATE PARTNERSHIPS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
               THE 287(G) PROGRAM: ENSURING THE INTEGRITY
                  OF AMERICA'S BORDER SECURITY SYSTEM
                   THROUGH FEDERAL-STATE PARTNERSHIPS

=======================================================================

                                HEARING

                               before the

         SUBCOMMITTEE ON MANAGEMENT, INTEGRATION, AND OVERSIGHT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 27, 2005

                               __________

                           Serial No. 109-36

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
28-332                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012007


                     COMMITTEE ON HOMELAND SECURITY

                 Christopher Cox, California, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania, Vice      Edward J. Markey, Massachusetts
Chairman                             Norman D. Dicks, Washington
Christopher Shays, Connecticut       Jane Harman, California
Peter T. King, New York              Peter A. DeFazio, Oregon
John Linder, Georgia                 Nita M. Lowey, New York
Mark E. Souder, Indiana              Eleanor Holmes Norton, District of 
Tom Davis, Virginia                  Columbia
Daniel E. Lungren, California        Zoe Lofgren, California
Jim Gibbons, Nevada                  Sheila Jackson-Lee, Texas
Rob Simmons, Connecticut             Bill Pascrell, Jr., New Jersey
Mike Rogers, Alabama                 Donna M. Christensen, U.S. Virgin 
Stevan Pearce, New Mexico            Islands
Katherine Harris, Florida            Bob Etheridge, North Carolina
Bobby Jindal, Louisiana              James R. Langevin, Rhode Island
Dave G. Reichert, Washington         Kendrick B. Meek, Florida
Michael McCaul, Texas
Charlie Dent, Pennsylvania

                                 ______

         Subcommittee on Management, Integration, and Oversight

                     Mike Rogers, Alabama, Chairman

Christopher Shays, Connecticut       Kendrick B. Meek, Florida
John Linder, Georgia                 Edward J. Markey, Massachusetts
Tom Davis, Virginia                  Zoe Lofgren, California
Katherine Harris, Florida            Sheila Jackson-Lee, Texas
Dave G. Reichert, Washington         Bill Pascrell, Jr., New Jersey
Michael McCaul, Texas                Donna M. Christensen, U.S. Virgin 
Charlie Dent, Pennsylvania           Islands
Christopher Cox, California Ex       Bennie G. Thompson, Mississippi Ex 
Officio                              Officio

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Chairman, Subcommittee on Management, 
  Integration, and Oversight:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Kendrick B. Meek, a Representative in Congress From 
  the State of Florida, and Ranking Member, Subcommittee on 
  Management, Integration, and Oversight.........................     3
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Committee on Homeland 
  Security.......................................................    29
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     5
The Honorable Donna Christensen, a Delegate from the U.S. Virgin 
  Islands........................................................    33
The Honorable Charlie Dent, a Representative in Congress From the 
  State of Pennsylvania..........................................    32
The Honorable John Linder, a Representative in Congress From the 
  State of Georgia...............................................    35
The Honorable Michael McCaul, a Representative in Congress From 
  the State of Texas.............................................    37
The Honorable Dave Reichert, a Representative in Congress From 
  the State of Washington........................................    39

                               WITNESSES
                                Panel I

Major Charles E. Andrews, Chief, Administrative Division, Alabama 
  Department of Public Safety:
  Oral Statement.................................................    20
  Prepared Statement.............................................    22
Mr. Mark F. Dubina, Special Agent Supervisor, Tampa Bay Regional 
  Operations Center, Florida Department of Law Enforcement, 
  Regional Domestic Security Task Force Supervisor:
  Oral Statement.................................................    15
  Prepared Statement.............................................    16
Mr. Paul M. Kilcoyne, Deputy Assistant Director, Office of 
  Investigations, U.S. Immigration and Customs Enforcement:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8

                                Panel II

Chief Jimmy R. Fawcett, Sixth Vice President, International 
  Association of Chiefs of Police:
  Oral Statement.................................................    57
  Prepared Statement.............................................    59
Dr. Kris W. Kobach, Professor, University of Missouri-Kansas City 
  School of Law:
  Oral Statement.................................................    50
  Prepared Statement.............................................    54


                    THE 287(G) PROGRAM: ENSURING THE
                 INTEGRITY OF AMERICA'S BORDER SECURITY
               SYSTEM THROUGH FEDERAL-STATE PARTNERSHIPS

                              ----------                              


                        Wednesday, July 27, 2005

                  House of Representatives,
                    Committee on Homeland Security,
                                Subcommittee on Management,
                                 Integration and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 210, Cannon House Office Building, Hon. Mike Rogers 
[chairman of the subcommittee] presiding.
    Present: Representatives Rogers, Cox, Linder, Reichert, 
McCaul, Dent, Meek, Thompson, and Christensen.
    Mr. Rogers. [Presiding.] This hearing will come to order.
    Today's hearing will focus on the current efforts by state 
and local law enforcement in enforcing federal immigration laws 
under a program referred to as the 287(g) Program.
    I first would like to welcome our distinguished guests 
today and thank them for taking the time out of their busy 
schedule to be here. I know you all have a lot to do, and it is 
awful kind of you to come by and visit with us.
    It is a special pleasure for me to welcome a witness from 
my home state of Alabama. Major Charles E. Andrews is the chief 
of the Administrative Division of the Alabama Department of 
Public Safety and works on the front lines with the 287(g) 
Program.
    Section 287(g) of the Immigration and Nationality Act 
provides a powerful tool to state and local law enforcement. 
Under this section of the Act, police departments can establish 
partnerships with federal immigration officers to reduce crime 
by identifying folks who are not in the United States legally.
    In my home state of Alabama, for example, the Department of 
Public Safety entered into a memorandum of understanding with 
the Department of Homeland Security in September of 2003 to 
participate in the 287(g) Program. This partnership allowed 21 
state troopers to be deputized to enforce federal immigration 
laws during the course of performing their normal duties.
    In addition, the state of Alabama uses these officers at 
six Department of Motor Vehicles offices to review suspicious 
identity documents. These officers have the authority necessary 
and training to contact the Federal Law Enforcement Support 
Center to check the immigration status and identities of 
suspects.
    If the Center determines that the suspects should be taken 
into custody, officers from the Homeland Security Department's 
Bureau of Immigration, Customs and Enforcement, or ICE, will do 
so within 72 hours.
    The 287(g) Program also in operation at other parts of the 
country. Florida initially authorized the training of 35 state 
and local law enforcement officers. Recently, an additional 27 
officers were added to work on the Florida Regional Domestic 
Security Task Forces, which perform immigration enforcement 
functions as a part of their investigation.
    And in California, Los Angeles County signed a 6-month 
memorandum of understanding for a 287(g) pilot program. Under 
this agreement, federal immigration officers train and certify 
so-called custody assistants. These officials perform 
immigration enforcement functions at the post-conviction stage 
of criminal proceedings.
    We are pleased to have with us today expert witnesses who 
will discuss how the 287(g) Program works, how the program 
improves security and how the Department of Homeland Security 
manages the program.
    Our first panel, we will hear from Mr. Paul Kilcoyne, ICE's 
deputy assistant director of investigations. We will also hear 
from Mr. Mark Dubina, special agent supervisor for the Tampa 
Bay Regional Operations Center at the Florida Department of Law 
Enforcement, as well as Major Charles E. Andrews, chief of the 
Administrative Division of the Alabama Department of Public 
Safety.
    I would like to mention at this point that the committee 
originally was going to hear from Alabama's assistant attorney 
general, Mr. Herron Lowe. Unfortunately, Mr. Lowe became ill 
over the weekend. But we are pleased that Major Andrews was 
available on such short notice, and we certainly wish Mr. Lowe 
a speedy recovery.
    Our second panel features experts on law enforcement who 
will share their views on the 287(g) Program. Dr. Kris Kobach 
is from the University of Missouri-Kansas City School of Law, 
and Chief Jimmy Fawcett is the sixth vice president for the 
International Association of Chiefs of Police.
    I once again want to thank the witnesses and look forward 
to their testimony on this important topic.
    And with that, I will recognize the ranking member, my 
friend and colleague from Florida, Mr. Kendrick Meek.

                 Prepared Statement of Hon. Mike Rogers

    The hearing will come to order. This hearing will focus on the 
current efforts by state and local law enforcement in enforcing Federal 
immigration laws under a program referred to as the ``287(g) Program.''
    I would first like to welcome our distinguished witnesses, and 
thank them for taking time out of their full schedules to be with us 
today. It is a special pleasure for me to welcome our witness from my 
home state of Alabama--Major Charles E. Andrews, Chief of the 
Administrative Division of the Alabama Department of Public Safety--who 
works on the front lines with the 287(g) Program.
    Section 287(g) of the Immigration and Nationality Act provides a 
powerful tool to state and local law enforcement. Under this section of 
the Act, police departments can establish partnerships with Federal 
immigration officers to reduce crime by identifying folks who are not 
in the United States legally.
    In my home state of Alabama, for example, the Department of Public 
Safety entered into a Memorandum of Understanding with the Department 
of Homeland Security in September 2003 to participate in the 287(g) 
Program. This partnership allowed 21 state troopers to be deputized to 
enforce Federal immigration law during the course of performing their 
normal duties.
    In addition, the state of Alabama uses these officers at six 
Department of Motor Vehicle offices--or, DMVs--to review suspicious 
identity documents. These officers have the authority and necessary 
training to contact the Federal Law Enforcement Support Center to check 
the immigration status and identities of suspects. If the Center 
determines that the suspect should be taken into custody, officers from 
the Homeland Security Department's Bureau of Immigration and Customs 
Enforcement--or, ICE--will do so within 72 hours.
    The 287(g) Program also is in operation in other parts of the 
country. Florida initially authorized the training of 35 state and 
local law enforcement officers. Recently, an additional 27 officers 
were added to work on Florida's Regional Domestic Security Task Forces, 
which perform immigration enforcement functions as part of their 
investigations.
    And, in California, Los Angles County signed a six-month Memorandum 
of Understanding for a 287(g) pilot program. Under this agreement, 
Federal immigration officers train and certify six so-called ``custody 
assistants'' to perform immigration enforcement functions at the post-
conviction stage of criminal proceedings.
    We are pleased to have with us today expert witnesses who will 
discuss how the 287(g) Program works; how the Program improves 
security; and how the Department of Homeland Security manages the 
Program.
    On our first panel we will hear from Mr. Paul Kilcoyne (pronounced: 
Kil-coin), the Deputy Assistant Director of Investigations for the 
Bureau of Immigration and Customs Enforcement within the Department of 
Homeland Security; Mr. Mark Dubina (pronounced doo-beena), Special 
Agent Supervisor for the Tampa Bay Regional Operations Center, at the 
Florida Department of Law Enforcement; and Major Charles E. Andrews, 
Chief of the Administrative Division of the Alabama Department of 
Public Safety.
    I would like to mention at this point that the committee originally 
was going to hear from Alabama's Assistant Attorney General--Mr. J. 
Haran Lowe--but he got pretty sick over the weekend. So, we are pleased 
that Major Andrews was available on such short notice, and we wish Mr. 
Lowe a speedy recovery.
    Our second panel features two experts on law enforcement who will 
share their views on the 287(g) Program. Dr. Kris W. Kobach (pronounced 
kow-back) is from the University of Missouri-Kansas City School of Law, 
and Chief Jimmy Fawcett is the Sixth Vice President for the 
International Association of Chiefs of Police.
    I once again thank the witnesses for joining us today, and look 
forward to their testimony on this important topic.

    Mr. Meek. Thank you, Mr. Chairman. I am glad to be here 
this morning.
    I would also like to welcome our witnesses to our 
subcommittee.
    This hearing, as you stated before, has been called to 
assess the 287(g) Program. As a former state law enforcement 
officer myself, I strongly believe our laws must be enforced. I 
also have a firsthand knowledge of what the state law 
enforcement officer will face on a daily basis.
    For the federal government to establish and develop 
effective partnerships with the state and local enforcement 
agencies are important.
    I am also aware of the conflict and burdens that are facing 
state law enforcement officers that are expected to protect and 
serve the public and enforce local and state laws. And on top 
of that now federal laws.
    The topic of today's hearing, the 287(g) Program, is 
another example of federal enforcement responsibilities that 
state and locals are asked to take on. Only two states in the 
Union and one county participate in 287(g) Program. Florida is 
one of them.
    The Florida Department of Law Enforcement has a limited 
program that allows agencies to apprehend undocumented aliens 
if they are participating in a joint investigation with 
Immigration and Customs Enforcement. I certainly believe that 
we should enforce immigration laws and work to prevent illegal 
immigration into this country.
    However, the International Association of Chiefs of Police 
has pointed out in its December report, Mr. Chairman, that I 
would also like to ask unanimous consent to enter into the 
record--
    Mr. Rogers. Without objection.
    Mr. Meek. --some concerns. And we have also had 
representatives that have testified before us in our joint 
hearing just recently.
    The concerns have been raised about the adequacy of 
training regarding to various immigration laws, the potential 
of civil rights and civil liberties violations and the impact 
on local immigrant communities.
    One concern I have is that because of the 287 Program, some 
immigrant groups have grown fearful of going to law enforcement 
officers to be able to provide information, even on local law 
enforcement issues.
    The other concern I have is that this administration 
continues to pass on federal responsibilities to protect the 
homeland but falls short of providing support, and I mean 
financial support. An example is state criminal alien 
assistance programs, which reimburse states and local 
governments for the cost that they incur for incarcerating 
undocumented aliens.
    Mr. Chairman, once again, I would like to ask unanimous 
consent to be able to enter this chart into the record.

                             For the Rcord

                                          Table 1: Post 9/11 Decreases in SCAAP Funding Reimbursement to States
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                            Reductions
                               States                                    FY 2001          FY 2002          FY 2003          FY 2004         Since 9/11
--------------------------------------------------------------------------------------------------------------------------------------------------------
Alabama                                                                     $334,040         $317,951         $109,483          $71,952         $262,088
--------------------------------------------------------------------------------------------------------------------------------------------------------
Arizona                                                                   23,814,068       24,183,895          165,629        9,083,367      -14,730,701
--------------------------------------------------------------------------------------------------------------------------------------------------------
California                                                               225,683,084      220,241,046       95,304,541      111,899,215     -113,783,869
--------------------------------------------------------------------------------------------------------------------------------------------------------
Florida                                                                   28,623,740       27,956,315       11,188,630       14,267,545      -14,356,195
--------------------------------------------------------------------------------------------------------------------------------------------------------
Illinois                                                                  14,396,351       15,788,246        5,476,520        3,338,261      -11,058,090
--------------------------------------------------------------------------------------------------------------------------------------------------------
New Jersey                                                                11,749,542       10,944,836        5,507,306        7,901,622       -3,847,920
--------------------------------------------------------------------------------------------------------------------------------------------------------
New Mexico                                                                 1,672,821        2,331,916        1,482,546          679,399         -993,422
--------------------------------------------------------------------------------------------------------------------------------------------------------
Texas                                                                     45,270,617       51,677,007       20,950,723       24,740,836      -20,529,781
--------------------------------------------------------------------------------------------------------------------------------------------------------
Source: Developed by the Minority Staff of the Homeland Security Committee based on the Congressional Research Service's Analysis of SCAAP award data
  compiled by the Department of Justice--BJA.


    Mr. Rogers. Without objection.
    Mr. Meek. Since 9/11, the appropriated funding to this 
program has been decreased by 50 percent, going from $565 
million in fiscal year 2001 to about $3 million in fiscal year 
2004. And I think it is important we pay very, very close 
attention to this federal program that has been decreased.
    Rather than shifting the burden and throwing small amounts 
of money to the state and local governments, the administration 
needs to provide additional resources to the Department of 
Homeland Security to carry out its mission of enforcing the 
nation's immigration laws.
    The 9/11 Act, which passed overwhelmingly in December, and 
the president signed into law, calls for the number of Border 
Patrol agents to be increased by 2,000 per year. The 
Immigration and Custom Enforcement investigators should be 
increased by 800 per year, and the number of detention bed 
space to be increased by 8,000 per year. However, the 
president's budget only covers a fraction of this commitment 
and inadequate funding for the strategy.
    This should be a part of a comprehensive risk-based 
approach of protecting our homeland, and that is what 
hopefully, Mr. Chairman, we will be able to come to today. The 
Department needs additional ICE agents, Border Patrol resources 
so that the Department of Homeland Security can effectively 
carry out its mission so that we can do what the American 
people have sent us here to do.
    Mr. Chairman, I also have some additional comments as it 
relates to this program, but I think it is important since we 
passed the 9/11 bill, and I know that we join in on this 
effort, of making sure that we provide the funding to federal 
law enforcement officers, but also we are asking state and 
local law enforcement officers to carry out federal duties that 
we need to make sure that they have the resources to do so.
    So I am glad to be here at this committee hearing, and I 
look forward to our witnesses' testimony.
    Mr. Rogers. Thank you.
    The chair now recognizes the ranking member of the full 
committee, the gentleman from Mississippi, Mr. Thompson, for 
any statement he may have.
    Mr. Thompson. Thank you very much, Mr. Chairman and Ranking 
Member Meek. I want to welcome our guests here today who will 
give their testimony to the committee.
    Today's hearing focuses on two very important issues: 
Assuring the integrity of America's border security and the 
role of state and local law enforcement in enforcing federal 
immigration laws.
    The enforcement of the immigration laws are inherently 
federal responsibility. Congress must thoroughly review any 
program or proposal to shift this burden to state and local 
governments.
    Today's hearing examines the 287(g) Program. This program 
permits state and local law enforcement officers to be trained 
and deputized by the federal government to enforce civil 
provisions of federal immigration laws.
    Since this provision was passed in 1996, only Alabama, 
Florida and Los Angeles County have chosen to participate in 
this program.
    Personally, Mr. Chairman, I wonder why so few states have 
signed up for this program. Are there implications from 
participation or lack of participation in this program? 
Specifically, does it impact local budgets, adversely affect 
relationships with immigration communities or burden agencies 
in a manner that takes their focus off local crime priorities?
    Concerns have been raised by many that state and local law 
enforcement officials participating in the program are not 
sufficiently trained or knowledgeable about the complex body of 
our immigration laws to enable them to properly enforce them. I 
am concerned that this may cause problems, such as confusion 
over immigration laws, liability concerns, civil rights and 
civil liberties violations, loss of immigration communities' 
cooperation with law enforcement, which we all know is so 
vitally important.
    Before we place any additional federal responsibilities on 
our state and local governments, we need to examine the 
hundreds of other responsibilities that the government has 
passed on to our state and local partners. We need to be 
certain that we are not bringing states and localities to a 
boiling point at a time when we need them most to protect the 
homeland.
    Although state and local law enforcement assistance 
programs saw their funding decreased, as already been shown by 
the ranking member's chart, there has continued to be that 
steady decline.
    Mr. Chairman, I look forward to the testimony, I look 
forward to some assessment as to why other states and 
localities have chosen not to participate in this program and 
whether or not it has served its usefulness and should be 
evaluated as to whether or not it should continue.
    Thank you very much, Mr. Chairman. I yield back.
    Mr. Rogers. Thank you. The gentleman yields back.
    To make sure that we have a fuller picture of the funding 
that you referenced, I would like to put into the record the 
SCAT funding for all 50 states so that we can see how 
comparable the numbers are that were submitted by the ranking 
member. So without objection, those will be admitted to the 
record.
    We now are pleased to recognize our two distinguished 
panels of witnesses before us today.
    I would like to remind the witnesses that their entire 
statements will be submitted for the record, so if you would 
like to give a more abbreviated version verbally, your full 
statement will be submitted for the record. And you will have 
up to 5 minutes for your oral statements before you move on to 
the next panelist.
    The chair now calls the first panel and recognizes Mr. Paul 
Kilcoyne, deputy assistant director of the Office of 
Investigations, U.S. Immigration and Customs Enforcement, to 
testify.
    Mr. Kilcoyne?

                   STATEMENT OF PAUL KILCOYNE

    Mr. Kilcoyne. Thank you very much.
    Mr. Chairman and distinguished members of the committee, 
thank you for the opportunity to speak to you today about the 
important work that is being accomplished by U.S. Immigration 
and Customs Enforcement, or ICE, in partnership with our state 
and local enforcement.
    ICE is aware of the critical role state and local law 
enforcement has in the broad homeland security mission. State 
and local law enforcement officers are not only the first 
responders when there is an incident or attack against the 
United States, but also during the course of their daily 
duties, they may encounter foreign-born criminals and 
immigration violators who could threaten our national security 
or public safety.
    Special agents assigned to 26 ICE field offices throughout 
the United States coordinate the ICE response when notified by 
state or local officials of ongoing criminal activity within 
ICE's enforcement jurisdiction. ICE's law enforcement 
jurisdiction is broad and is necessary to accomplish its 
mission of protecting the United States and its people by 
deterring and investigating threats arising from the movement 
of people and goods into and out of the United States while 
simultaneously addressing vulnerabilities to our nation's 
borders and systems.
    Under Section 287(g) of the INA, the Secretary of Homeland 
Security has the authority to enter into formal written 
agreements with state and local political jurisdictions to 
authorize state and local law enforcement officers to perform 
immigration enforcement functions.
    The law requires that a written MOU be signed between the 
parties. The MOU is comprehensive and defines the scope and 
limitations of each authority to be exercised under Title 8. It 
mandates a rigorous, multi-week training program that 
encompasses immigration and naturalization law, statutory 
authority, racial profiling and cultural awareness training, 
which mirrors the training that ICE agents receive.
    Each 287(g) MOU establishes the supervisory structure over 
the state and local officers with authority and prescribes an 
agreed upon complaint process governing officer conduct during 
the life of the agreement.
    ICE is expanding the use of 287(g) agreements as an 
appropriate force multiplier into state and local jails. This 
will have a significant impact on ICE's ability to identify and 
remove criminal aliens from non-federal criminal justice 
systems. ICE believes that the 287(g) Program will produce 
enormous dividends when used within the state and local jail 
systems.
    State or local corrections officers with immigration 
authority under the program and under ICE supervision could 
identify, process and lodge detainers against criminal aliens. 
Such a partnership between ICE and a jail could result in more 
criminal aliens being removed from the United States.
    I assure you of ICE's commitment to establishing and 
maintaining effective partnerships and information sharing with 
state and local law enforcement agencies. Such partnerships are 
essential to carrying out ICE's mission of deterring criminal 
activity and threats to the national security and public 
safety.
    We are very appreciative of the work of the many state and 
local law enforcement officers who assist ICE's daily mission 
and are pleased to be able to assist them primarily by 
providing 24 by 7 access to the Law Enforcement Support Center 
in Vermont, whose personnel query all available criminal record 
and alien status databases.
    The LESC is the focal point for the National Crime 
Information Center, or NCIC Program, and has a permanent NCIC 
unit dedicated solely to receiving, resolving and entering as 
well as maintaining every record deemed eligible for entry into 
NCIC.
    ICE is committed to utilizing the NCIC as a way to inform 
state and local law enforcement about wanted and fugitive 
aliens. ICE has entered over 155,000 records into NCIC. At the 
present time, the majority of those records are deported felons 
but also include absconders and persons with outstanding ICE 
criminal warrants.
    There is a significant law enforcement information value in 
the records that ICE is entering in NCIC. The information value 
goes directly to issues of both public and officer safety. The 
ICE NCIC information may be key in assisting state and local 
law enforcement officers making the real-time critical 
decisions that they are required to make every day.
    Another way the LESC is working to facilitate the timely 
flow of information to our state and local partners is through 
an automated electronic notification to the LESC when a 
criminal alien is booked into a county, state or local jail. An 
electronic query is automatically sent to the LESC every time 
an inmate claims foreign place of birth during the jail booking 
process. This process is called Blind Booking and virtually 
eliminates any claim of profiling.
    Currently, there are seven jails utilizing the LESC blind 
booking concept. They are Anaheim, San Diego and San Mateo in 
California, El Paso and Travis Counties in Texas, Metro-Dade in 
Florida and Maricopa jail in Arizona.
    In those jails, detainers can be lodged directly by the 
LESC with subsequent follow-up by local ICE officers. Blind 
Booking quickly provides jails with important identity and 
status information about criminal aliens in their custody and, 
at the same time, assists ICE in its efforts to locate and 
remove criminal aliens from the United States.
    In closing, I would like to reemphasize that the future of 
the 287(g) Delegation of Authority Program will better serve 
the people of the United States and ICE's mission being 
utilized in the nation's prisons and jails. This will allow ICE 
to maximize the potential of the 287(g) Program by increasing 
the number of incarcerated criminal aliens identified and 
removed from the United States.
    I want to thank this committee for the opportunity to speak 
to you today, and I look forward to answering any questions you 
may have.
    [The statement of Mr. Kilcoyne follows:]

                 Prepared Statement of Paul M. Kilcoyne

    Mr. Chairman and distinguished members of the committee. Thank you 
for the opportunity to speak to you today about the important work that 
is being accomplished by U.S. Immigration and Customs Enforcement (ICE) 
in partnership with state and local law enforcement. ICE is aware of 
the critical role state and local law enforcement has in the broad 
homeland security mission. State and local law enforcement officers are 
not only the first responders when there is an incident or attack 
against the United States, but, also, during the course of their daily 
duties they may encounter foreign-born criminals and immigration 
violators who could threaten our national security or public safety. 
ICE recognizes that critical role and partners with state and local law 
enforcement agencies nationally and locally through a variety of 
arrangements that increase the overall effectiveness of federal, state 
and local law enforcement and our joint ability to protect the 
homeland.
    Special Agents assigned to 26 ICE field offices throughout the 
United States coordinate the ICE response when notified by state or 
local officials of ongoing criminal activity within ICE's enforcement 
jurisdiction. ICE's law enforcement jurisdiction is broad and the 
mission of protecting the United States and its people by deterring and 
investigating the movement of people and goods into and out of the 
United States and apprehending illegal aliens within the United States, 
while simultaneously addressing vulnerabilities to our Nation's borders 
and systems.
    ICE recognizes that combating terrorism and criminal activity is 
best accomplished from a multi-agency/multi-authority approach that 
encompasses federal, state and local resources, skills and expertise. 
In addition to direct enforcement actions, ICE believes sharing 
information with our state and local partners in law enforcement is a 
critical component of the vision of the DHS and ICE to ensure the 
safety of the United States and the American people.
    ICE has provided a wide variety of training opportunities for state 
and local law enforcement officers. Before the formation of the 
Department of Homeland Security (DHS), the Immigration and 
Naturalization Service cooperated with the International Association of 
Chiefs of Police (IACP) to provide a two-day field-training course 
``Responding to Alien Crime.'' This course provided information 
concerning criminal aliens to law enforcement agencies throughout the 
United States. In 2003, ICE produced a new video training course in 
cooperation with the IACP. Over 250 law enforcement officers in Phoenix 
and Sierra Vista, Arizona; Dallas, Texas; Philadelphia, Pennsylvania 
and Miami, Florida attended the new course. Also in 2003, ICE provided 
a basic block of instruction in immigration law and procedures to 654 
Alabama State Troopers. Sixteen classes were held in seven different 
locations. That instruction was given in preparation for implementation 
of a Section 287(g) agreement with the State of Alabama to allow 
certain State Troopers to perform immigration enforcement functions 
under ICE supervision.
    Under Section 287(g) of the Immigration and Nationality Act (INA), 
the Secretary of Homeland Security has the authority to enter into 
formal written agreements with state and local political jurisdictions 
to authorize state and local law enforcement officers to perform 
immigration enforcement functions. The law requires that a written 
Memorandum of Understanding be signed between the parties. All selected 
law enforcement officers must receive the appropriate training in 
immigration law and procedure and must be individually certified. ICE 
must supervise all selected officers when they are using their 
immigration authority under Section 287(g). Properly constructed, 
mutually agreed upon Section 287(g) agreements are a dynamic, yet 
closely monitored force multiplier for ICE in its commitment to protect 
America's communities.
    The written agreement in the form of a Memorandum of Understanding 
is the keystone to the effective execution of Section 287(g). It must 
be comprehensive and define the scope and limitations of each authority 
to be exercised under Title 8. It mandates a rigorous, multi-week 
training program that encompasses immigration and naturalization law, 
statutory authority, racial profiling and cultural awareness training, 
which mirrors the training that ICE agents receive. It establishes the 
supervisory structure over the officers with authority under Section 
287(g) and prescribes an agreed-upon complaint process governing 
officer conduct during the life of the agreement.
    After September 11, Florida officials were increasingly concerned 
about the number of terrorist related cases in Florida, many involving 
foreign nationals, and established seven Regional Domestic Security 
Task Forces throughout the state. In 2002, the Florida Department of 
Law Enforcement entered into the first Section 287(g) agreement. 
Thirty-five officers assigned to the regional task forces participated 
in an extensive training program, graduated and were certified to 
perform the duties of immigration officers. In April 2005, ICE 
completed the second 287(g) Delegation of Authority course, under the 
existing Florida MOU. ICE trained and cross-designated 27 law 
enforcement officers from various agencies throughout the State of 
Florida. This agreement has been successful and productive. The Florida 
task forces have conducted over 170 investigative cases and recorded 
numerous arrests.
    Building on the success of the Florida agreement, ICE and the State 
of Alabama signed a written agreement in September 2003 to provide 
immigration enforcement authority to a selected group of 21 Alabama 
State Troopers. Like their Florida colleagues, those troopers received 
extensive training in immigration and nationality law and procedure at 
the DHS Center for Domestic Preparedness in Anniston, Alabama. They are 
now certified and have the authority to perform immigration enforcement 
functions incidental to their normal duties as patrol officers or at 
driver licensing stations. They are also trained and certified to 
transport and detain aliens unlawfully present in the United States.
    ICE has expanded the use of Section 287(g) Delegation of Authority 
agreement as an appropriate force multiplier into state and local 
systems. This will have a significant impact on ICE's ability to 
identify and remove criminal aliens from the non-federal criminal 
justice system. ICE believes that the 287(g) Delegation of Authority 
program will produce enormous dividends when used within the state and 
local jail systems. State or local correctional officers, with 
immigration authority under Section 287(g) and under ICE supervision, 
could identify, process and lodge detainers against criminal aliens. 
Such a partnership between ICE and a jail could result in more criminal 
aliens being removed from the United States.
    I assure you of ICE's commitment to establishing and maintaining 
effective partnerships and information sharing with state and local law 
enforcement agencies. Such partnerships are essential to carrying out 
ICE's mission of deterring criminal alien activity and threats to 
national security and public safety in the United States. We are very 
appreciative of the work of the many state and local law enforcement 
officers who assist ICE daily in its mission and we are pleased to be 
able to assist them.
    ICE maintains a vast repository of immigration related information. 
ICE will continue to share that information with all of our partners in 
law enforcement. In fiscal year 2004, the ICE Law Enforcement Support 
Center (LESC) provided immigration related information requested by our 
state and local law enforcement partners and federal colleagues on 
nearly 668,000 occasions. This represents an increase of over 73,000 
responses from the previous fiscal year. The LESC regularly responds to 
over 60,000 queries per month.
    The LESC is the vital ICE point of contact with our country's 
entire law enforcement community. The LESC is on the cutting edge of 
the federal effort to share critical enforcement information with 
state, county, local and even international law enforcement officers. 
It provides timely immigration status and identity information and 
real-time assistance to local, state and federal law enforcement 
agencies on aliens suspected, arrested or convicted of criminal 
activity. The LESC operates 365 days a year, 24 hours a day, 7 days a 
week assisting law enforcement agencies with information gathered from 
8 immigration databases, the National Crime Information Center (NCIC), 
the Interstate Identification Index (III) and other state criminal 
history indices. Access to the LESC is fully electronic and uses the 
same telecommunications system--NLETS--familiar to and used by all of 
law enforcement for over three decades. Responses to requests for 
information sent to the LESC are routinely received and returned within 
an hour. Since the LESC was established in 1994, the primary users have 
been state or local law enforcement officers seeking information about 
aliens encountered in the course of their daily duties. The rapidly 
growing number of queries submitted and answered by the LESC 
demonstrates its acceptance and effectiveness in the law enforcement 
community.
    The merging of 22 agencies and bureaus into the Department of 
Homeland Security provides new access to law enforcement databases that 
will now be used by the LESC to significantly broaden its enforcement 
capabilities. For example, the LESC now has access to intelligence 
information from multiple DHS databases, including SEVIS and US VISIT. 
This will improve the LESC's ability to provide timely, critical 
information to state and local law enforcement agencies around the 
Nation, as well as to international enforcement agencies.
    The LESC is also the focal point for the ICE NCIC program and has a 
permanent NCIC unit dedicated solely to receiving, resolving, entering 
and maintaining every record deemed eligible for entry into NCIC. ICE 
is committed to utilizing NCIC as a way to inform state and local law 
enforcement about wanted and fugitive aliens. ICE has entered over 
155,000 records in NCIC. At the present time, the majority of those 
records are deported felons, but they also include persons with 
outstanding ICE criminal warrants, a small number of National Security 
Entry-Exit Registration System (NSEERS) violators and absconders.
    There is significant law enforcement information value in the 
records that ICE is entering in NCIC. That information value goes 
directly to issues of public and, specifically, officer safety. The ICE 
NCIC information may be key in assisting state and local law 
enforcement officers make the real time critical decisions that they 
are required to make every day. ICE has recently consolidated and 
enhanced its response to state and local law enforcement agencies 
seeking assistance in immigration related enforcement matters, 
including requests for NCIC hit confirmations, status and identity 
information and assistance in instances of suspected over-the-road 
alien smuggling.
    Additionally, the LESC provides training to state, local and other 
federal law enforcement officers on how to access its information and 
on ICE roles and responsibilities. The LESC is currently developing an 
Office of Law Enforcement Liaison that will have among its 
responsibilities providing training to law enforcement nationwide. In 
the last 24 months, LESC agents trained federal, state and local law 
enforcement officers in Alabama, Arkansas, Arizona, California, the 
District of Columbia, Florida, Georgia, Idaho, Maryland, Minnesota, 
Mississippi, Nevada, New York and Texas.
    Another way the LESC is working to facilitate the timely flow of 
information to our state and local partners is through an automated 
electronic notification to the LESC when a criminal alien is booked 
into a state, county or local jail. An electronic query is 
automatically sent to the LESC every time an inmate claims foreign 
place of birth during the jail booking process. This process is called 
``Blind Booking'' and virtually eliminates any claim of profiling. 
Currently, there are seven jails utilizing the LESC's ``Blind Booking'' 
concept. They are: Anaheim, San Diego and San Mateo in California; El 
Paso and Travis Counties in Texas; Metro-Dade in Florida and Maricopa 
County, Arizona. In those jails, detainers can be lodged directly by 
the LESC with subsequent follow-up by local ICE officers. In some of 
those jails, ICE officers assigned to dedicated jail units interview 
individuals identified through the automated booking process. ``Blind 
Booking'' quickly provides jails with important identity and status 
information about criminal aliens in their custody and, at the same 
time, assists ICE in its efforts to locate and remove criminal aliens 
from the United States.
    ICE and DHS coordination with law enforcement around the country 
has expanded significantly since September 11.
    Another unique ICE asset, the ICE Forensic Documentary Laboratory 
(FDL), also serves the needs of state and local law enforcement and our 
federal colleagues. The FDL provides a wide variety of forensic and 
intelligence services in support of the DHS mission to enforce 
immigration laws and combat document fraud. The FDL is unique among 
Federal crime laboratories both in its dedication to the forensic 
examination of documents, and its integration of an operational 
intelligence and training capability. In addition to directly 
supporting DHS field officers, it also offers its services to other 
federal, foreign, and state and local governmental entities. For 
example, the FDL has performed forensic document and fingerprint 
examinations for numerous state and local police agencies, Departments 
of Motor Vehicles, and local prosecutors' offices. The FDL has also 
provided training in fraudulent document recognition to the 
International Association of Chiefs of Police (IACP), state and local 
police agencies, and motor vehicle departments. The FDL developed the 
Guide to Selected U.S. Travel and Identity Documents (M-396), a highly 
instructive pocket guide for state and local law enforcement and other 
governmental personnel who encounter immigration and other U.S. 
documents.
    In closing, I would like to re-emphasize that the future of the 
287(g) Delegation of Authority Program will better serve the people of 
the United States and ICE's mission being utilized in the Nation's 
prison and jails. This will allow ICE to maximize the potential of the 
287(g) Program by increasing the number of incarcerated criminal aliens 
identified and removed from the United States.
    I want to thank the distinguished members of this Committee for the 
opportunity to speak before you today. I look forward to answering any 
questions you may have.

             International Association of Chiefs of Police

  Enforcing Immigration Law: The Role of State, Tribal and Local Law 
                              Enforcement

    The September llth attacks have affected the manner in which law 
enforcement agencies view their responsibilities and duties. In the 
ensuing two years, state and local law enforcement agencies have done a 
magnificent job in meeting the challenges presented by this new 
reality, and we have done much to make our communities and our citizens 
safer and more secure.
    Law enforcement has used a variety of methods, including increased 
cooperation with federal law enforcement, reassement of current 
training and patrol methods, and greater communication and intelligence 
sharing between and among law enforcement agencies.
    But the specter of foreign terrorists has also brought the state 
and local law enforcement community face-to-face with a critical and 
fundamental question that will likely help shape the way we police our 
communities: namely, what role should state and local law enforcement 
play in the enforcement of federal immigration laws?
    Significantly, in the 111-year history of the IACP, the membership 
has never adopted a resolution or policy position 011 this vital 
question. The reason for this silence is clear. There is a significant 
difference of opinion in the law enforcement profession on this issue.
    Many law enforcement executives believe that state and local law 
enforcement should not be involved in the enforcement of civil 
immigration laws since such involvement would likely have a chilling 
effect on both legal and illegal aliens reporting criminal activity or 
assisting police in criminal investigations. They believe that this 
lack of cooperation could diminish the ability of law enforcement 
agencies to effectively police their communities and protect the public 
they serve.
    Other law enforcement executives believe that it is appropriate for 
state and local law enforcement to play an active role in immigration 
enforcement because individuals who are in the country illegally have 
violated the law and should be treated in the same fashion as other 
criminals. They feel that it is the duty of state and local law 
enforcement to assist the federal government and to apprehend and 
detain these individuals.
    Both viewpoints raise valid arguments and it is easy to understand 
why no consensus has been reached and no policy position has been 
adopted by the IACP.
    This document is not intended to rule on this fundamental 
philosophical question. It is the IACP's belief that the question of 
state, tribal or local law enforcement's participation in immigration 
enforcement is an inherently local decision that must be made by a 
police chief, working with their elected officials, community leaders 
and citizens.
    Instead, this issue brief was prepared to provide background 
information on the current status of immigration enforcement efforts, 
examine the concerns and obstacles that currently hinder enforcement 
efforts by the state, tribal and local law enforcement community, and 
to set forth the elements necessary to secure the support of the IACP 
for legislative proposals addressing the question of immigration 
enforcement by non-federal law enforcement agencies.

Background Information:
Immigration & Illegal Aliens in the United States
    At the outset, it is important to note that state, tribal and local 
police are not required to enforce federal immigration laws. The 
federal government and its agencies are the authorities responsible for 
enforcement of immigration law. With this authority, the federal 
government has enacted laws, such as the Immigration and Naturalization 
Act (INA), that regulate a person's entry into the United States, his 
or her ability to remain in the country, and numerous other aspects of 
immigration.

    The following is a brief review of the most common status 
classifications.

        (1) Legal Immigrants & Visa Holders:
                Immigrants are citizens of other countries who have 
                been granted a visa that allows them to live and work 
                permanently in the United States and to become 
                naturalized U.S. citizens. Immigrant visas are normally 
                issued to foreigners at U.S. consulates in their home 
                countries. Along with a foreign passport, the visa 
                entitles them to enter the United States. Once here, 
                immigrants receive a card from the INS indicating they 
                are permanent residents. This card used to be green, so 
                that immigrants are still referred to frequently as 
                ``greencard holders.''
                Refugees are persons outside their country of 
                citizenship who fear persecution based on race, 
                religion, nationality, membership in a particular 
                social group, or political opinion if they return. Some 
                are resettled every year in the United States: the 
                total number is determined annually by the President in 
                consultation with Congress. Asylum applicants arrive in 
                the United States and request safe haven here: their 
                number depends on how many aliens show up asking to be 
                recognized as refugees
                Nonimmigrant visa holders are persons who are granted 
                temporary entry into the United States for a specific 
                purpose, such as visiting, working, or studying. The 
                U.S. has 25 types of nonimmigrant visas, including A1 
                visas for ambassadors, B2 visas for tourists, P1 visas 
                for foreign sports stars who play on U.S. teams and TN 
                visas for Canadians and Mexicans entering the U.S. to 
                work under NAFTA.

        (2) Illegal Aliens
        Illegal aliens are foreign nationals who have entered the U.S. 
        without any legal status. The most common ways are by either 
        crossing a land or sea border without being inspected by an 
        immigration officer, or simply by violating the terms of a 
        legal entry document. Legal aliens are entitled to enter and 
        remain in the U.S. as long as they maintain the terms of their 
        status.

        (3) Alien Absconders
        Alien absconders are foreign nationals who entered the United 
        States legally but have since violated the conditions of their 
        visa and who have had a removal, deportation, or exclusion 
        hearing before an immigration judge and are under a final order 
        of deportation and have not left the United States.
    It is currently estimated that there are between 8-10 million 
illegal aliens living in the U.S., with another estimated 800,000 
illegal aliens entering the country every year. Of this total, the 
Department of Homeland Security has estimated that 450,000 are ``alien 
absconders''. Finally, an estimated 86,000 are criminal illegal 
aliens--people convicted of crimes committed in the U.S. and who should 
have been deported but have, through a variety of reasons, remained in 
the United States.

Obstacles/Concerns over
Local Involvement in Immigration Enforcement
Confusion Over Immigration Laws: Criminal Versus Civil Violations
    Immigration laws differ from the criminal laws local police 
officers deal with most regularly in that immigration laws contain both 
civil and criminal aspects. For example, an illegal entrant into the 
United States has committed a federal felony violation, and state and 
local law enforcement officers are legally empowered to arrest and 
detain the individual. However, legally admitted aliens who have 
overstayed their visas have committed a civil violation, and state and 
local police have no authority to arrest and detain them.
    Therefore, the IACP is greatly concerned that if the names of 
314,000 deportable aliens are placed into the NCIC system without the 
benefit of a felony warrant being issued for their arrest, state and 
local law enforcement officers will be placed in the position of being 
asked to detain and arrest these individuals without possessing the 
proper authority to do so.
    This situation concerns some in the law enforcement community who 
fear that immigration enforcement by state and local police could lead 
the government to burden state and local agencies with enforcement of 
still other federal civil violations.

Training Requirements
    Currently, state and local police do not have the training or 
expertise to enforce immigration laws, and in this time of shrinking 
local budgets, many executives feel they do not have the resources to 
tackle this additional federal issue. There are federal agencies 
specifically charged with the enforcement and application of the 
complex immigration laws and regulations. These agents do not handle 
street disorder, robberies, murders, traffic problems, and a host of 
other issues facing state and local officers. These federal agencies 
are designed, and their agents are specifically trained, to enforce 
these immigration laws.
    Addressing immigration violations such as illegal entry or 
remaining in the country without legal sanction would require 
specialized knowledge of the suspect's status and visa history and the 
complex civil and criminal aspects of the federal immigration law and 
their administration. This is different from identifying someone 
suspected of the type of criminal behavior that local officers are 
trained to detect. Whether or not a person is in fact remaining in the 
country in violation of federal civil regulations or criminal 
provisions is a determination best left to these agencies and the 
courts designed specifically to apply these laws and make such 
determinations after appropriate hearings and procedures. Without 
adequate training, local patrol officers are not in the best position 
to make these complex legal determinations.

Limitations on Arrest without a Warrant
    Local police agencies must also comply with the laws of their own 
states. These laws may limit their ability and authority to detain and 
arrest persons on suspicion of being in the country in violation of 
federal laws. These limitations may have little to do with immigration 
specifically but more general police powers, such as the power to 
arrest without a warrant.
    The fact that state law may not authorize local police to detain 
persons for illegal immigration is recognized by the federal agencies 
as shown by the language of some of the civil detention notices 
currently being placed on the NCIC system. These notices to detain 
include the qualifiers ``If permitted by state and local law' and ``If 
permitted in your jurisdiction.'' Federal immigration officers do not 
face such restrictions, because the federal immigration laws allow them 
to detain and interrogate a person as to their right to be or remain in 
the United States without a warrant.

Liability Concerns
    When local police have waded into immigration enforcement, it has 
often come with disastrous and expensive consequences. To list just one 
example, in 1994 the police in Katy, Texas, conducted raids in search 
of illegal immigrants. More than 80 of those persons temporarily 
detained were Hispanics who were either U. S. citizens or foreign 
nationals who were in the country legally. The Katy Police Department 
faced numerous lawsuits alleging civil rights violations.
    This example illustrates the legal risk that law enforcement 
agencies and officers are exposed to when they attempt, in good faith, 
to enforce federal immigration law.

Chilling Effects on Immigrant Cooperation
    Immigration enforcement by state and local police could have a 
chilling effect in immigrant communities and could limit cooperation 
with police by members of those communities. Local police agencies 
depend on the cooperation of immigrants, legal and illegal, in solving 
all sorts of crimes and ill the maintenance of public order. Without 
assurances that .they will not be subject to an immigration 
investigation and possible deportation, many immigrants with critical 
information would not come forward, even when heinous crimes are 
committed against them or their families. Because many families with 
undocumented family members also include legal immigrant members, this 
would drive a potential wedge between police and huge portions of the 
legal immigrant community as well.
    This will be felt most immediately in situations of domestic 
violence. For example, many law enforcement agencies have been 
addressing the difficult issues related to domestic abuse and the 
reluctance of some victims to contact the police. This barrier is 
heightened when the victim is an immigrant and rightly or wrongly 
perceives her tormentor to wield the power to control her ability to 
stay in the country. The word will get out quickly that contacting the 
local police can lead to deportation or being separated by a border 
from one's children. Should local police begin enforcing immigration 
laws, more women and children struggling with domestic violence will 
avoid police intervention and help.

IACP Position:
Legislation Addressing Immigration Enforcement
    Given the concerns and obstacles outlined above, .the IACP believes 
that at a minimum, any legislation seeking to have state and local law 
enforcement agencies participate in immigration enforcement must 
contain the following essential elements.

Voluntary:
    Because the question of state, tribal or local law enforcement's 
participation in immigration enforcement is an inherently local 
decision, the IACP believes that any legislative proposal to enlist the 
assistance of non-federal agencies in immigration enforcement must be 
based on the completely voluntary cooperation of statellocal law 
enforcement agencies.
    Therefore, any legislative proposals that seek to coerce 
cooperation through the use of sanction mechanisms that would withhold 
federal assistance funds from states or localities is unacceptable to 
the IACP.

Authority Clarification:
    In order to clarify the authority of state, tribal and local law 
enforcement to act in matters related to immigration enforcement, it is 
necessary for the federal government to issue a clear and complete 
statement that outlines the role of state, local and tribal law 
enforcement agencies in this effort and enumerates the legal authority 
of state, local and tribal law enforcement officers to act in these 
matters.
    In addition, in cases involving aliens with civil violations, it is 
the IACP's belief that if the federal government wants to have state 
and local law enforcement officers apprehend and detain these 
deportable aliens, then it must first secure a federal criminal arrest 
warrant for these individuals. In this fashion, state and local law 
enforcement officers will be certain that the actions they take in 
dealing with these individuals is consistent with their legal authority 
and the policies of their agencies.

Incentive Based Approach
    Legislative proposals addressing immigration enforcement should 
provide law enforcement agencies with an incentive to perform 
immigration enforcement. Under such an incentive based approach, 
agencies that agree to perform immigration enforcement activities as 
set forth in the legislation would be eligible to receive federal 
assistance funds that may be used for a variety of uses related to 
immigration enforcement. For example, agencies should be authorized to 
use these funds to:
        (1) Cover the personnel costs associated with the enforcement 
        effort.
        (2) Cover the costs of training programs for their law 
        enforcement officers.
        (3) Cover the costs associated with housing and transportation 
        of these individuals prior to their release into federal 
        custody.

Liability Shield:
    Legislative proposals addressing immigration must provide:
        (1) Personal liability immunity to state, tribal and local law 
        enforcement officials for enforcing federal immigration laws 
        within the scope of their duties.
        (2) Immunity for state, tribal or local agencies enforcing 
        immigration laws unless their personnel violated criminal law 
        in such enforcement.

Training Resources: The legislation should also ensure that the federal 
government will provide the financial assistance necessary to develop 
and provide a training program for state, local and tribal law 
enforcement officers 011 federal immigration law and how they should 
respond when they encounter suspected illegal aliens and absconders. 
(However, specific-training requirements, including the number of hours 
or topics to be covered, should be the responsibility of law 
enforcement administrators, who should design training programs 
appropriate to their agencies.)

    Mr. Rogers. Thank you, Mr. Kilcoyne.
    The chair now recognizes Mr. Mark Dubina, special agent 
supervisor, Tampa Bay Regional Operations Center, Florida 
Department of Law Enforcement, Regional Domestic Security Task 
Force supervisor, for your statement.

                    STATEMENT OF MARK DUBINA

    Mr. Dubina. Mr. Chairman and distinguished members of the 
committee, I would like to begin by thanking this committee for 
the opportunity to represent the state and local officers 
throughout Florida who are designated to serve in the first of 
its kind 287(g) Cross-Designation Program.
    After the atrocities of September 11, 2001, the state of 
Florida quickly assessed its ability to detect and respond to 
domestic security and terrorist events. From these efforts, the 
state of Florida created seven Regional Domestic Security Task 
Forces.
    In November 2001, the Florida legislature met in special 
session and codified the Domestic Security Task Force structure 
in statute. Their mission is to employ the coordinated 
resources of various local, state and federal agencies to 
prevent, preempt and disrupt any terrorist attack or other 
domestic security threats within the state of Florida or in the 
event of such an attack they can respond to the incident--
    Mr. Rogers. Excuse me, Mr. Dubina, could you pull your 
microphone a little bit closer? We cannot hear you.
    Mr. Dubina. Is that better?
    Mr. Rogers. There you go.
    Mr. Dubina. Starting again, their mission is to employ the 
coordinated resources of various local, state and federal 
agencies to prevent and preempt or disrupt any terrorist attack 
or other domestic security threats within the state of Florida 
or in the event of an attack, to effectively respond to the 
incident to facilitate recovery and investigations.
    At the time, it was quite apparent that these RDSTF law 
enforcement components could become force multipliers for 
limited legacy INS officers to address immigration issues with 
a potential nexus to terrorism. In December 2001, INS and FDLE 
leadership met to discuss the concept of using the provisions 
of Section 287(g) and consensus was reached as to the need for 
such a program.
    The initiative proposal led to a final memorandum of 
understanding which was signed by the United States Attorney 
General Ashcroft, Governor Bush, INS Commissioner Ziegler and 
FDLE Commissioner Moore in July 2002. In December 2003, this 
MOU was renewed and signed by Department of Homeland Security 
Undersecretary Hutchinson and Florida Governor Bush.
    The MOU outlines a number of terms and conditions for this 
287(g) authority. Implementing the provisions of the MOU began 
during April 2002. Soon after, the Immigration Officer Academy 
crafted a 6-week training course featuring the delegation of 
authority curriculum. On July 9, 2002, the first ever Section 
287(g) training course began. The training was tough and 
thorough. On August 15, 2002, the course graduated all 35 
participants.
    The state of Florida, through the RDSTFs expended 
considerable energy and time communicating the purpose of the 
program to various ethnic groups. Some cultural groups 
expressed concerns related to any INS authority being delegated 
to state and local officers. The Office of the Governor, the 
RDSTFs and legacy INS diligently worked to produce an 
informative brochure that explained in simple terms and 
multiple languages the mission of the program.
    Further, all parties held open meetings and used media 
outlets to communicate exactly what Florida's intentions were 
with this program to the ethnic groups with concerns, including 
community and religious leaders. I am proud to say on behalf of 
all the regions we have adhered to the spirit and letter of the 
MOU.
    I cannot overemphasize the highly focused nature of the 
Florida initiative. In all cases, the ICE team leader to the 
RDSTF, the FDLE special agent supervisor and the local ICE 
immigration supervisor must agree on a decision to arrest or 
detain a person, pursuant to 287(g) authority. We also mutually 
share and understand the concerns of our community and the 
participating agencies. As of today, not one formal complaint 
has been filed with FDLE related to this program.
    Florida strongly supported an additional 287 delegation of 
authority training program, and in March of this year a second 
class was convened. During April, the ICE Academy graduated 27 
additional task force agents, and they were deployed back into 
the regions.
    To date, the 287(g) initiative arrests cover a broad 
spectrum of activity. We have detained single individuals 
involved in what appears to be surveillance activities in 
sensitive locations. We have also conducted extensive 
investigations that have resulted in illegal aliens being 
apprehended working in restricted or secured areas of airports, 
seaports and nuclear plants.
    In those cases where an immigrant is cleared of suspicion 
but still has immigration issues, the subject is afforded the 
same consideration as any illegal alien not encountered under 
these circumstances.
    Ironically, this training and experience has proven to be a 
benefit to the immigrant communities they serve because the 
agents are more readily able to clear a person that is 
suspected of suspicious activity by having access to the wealth 
of information contained in ICE databases and training 
curriculum.
    As with all preventive measures, we will never know for 
sure just how many terrorists or other criminal operations we 
have disrupted or impacted; however, we can state that our 
commitment to follow all leads from citizens, the private 
sector and other government agencies continues in a diligent 
and organized manner.
    Additionally, participating agencies have recognized this 
authority, coupled with appropriate training and oversight, 
adds value to their organizations.
    In closing, Florida strongly supports the continuation of 
the 287(g) Cross-Designation Program. Again, thank you for this 
tremendous opportunity, and I look forward to your questions.
    [The statement of Mr. Dubina follows:]

                  Prepared Statement of Mark F. Dubina

    Mr. Chairman and distinguished Members of the Committee. I would 
like to begin by thanking this Committee for the opportunity to 
represent the state and local officers throughout Florida, who are 
designated to serve in the first of its kind 287(g) Cross Designation 
Program. All of these men and women have served on Florida's Regional 
Domestic Security Task Forces, and are committed to a partnership with 
federal law enforcement to ensure the domestic security of the citizens 
and visitors in the State of Florida. These partnerships are vital in 
creating bonds that allow law enforcement at all levels to work 
together against future terrorist attacks targeting the State of 
Florida and our nation.
    Please allow me to start with a history of the 287(g) Cross 
Designation Program in Florida. After the atrocities of September 11, 
2001, the State of Florida quickly assessed its abilities to detect and 
respond to domestic security and terrorist events. Governor Jeb Bush 
directed Florida Department of Law Enforcement (FDLE) and Department of 
Emergency Management (DEM), to lead Florida's efforts in determining 
its preparedness. Within one month, over 1,000 agencies including Law 
Enforcement, Fire, Emergency Management, Health and the private sector 
were polled in this project. From these efforts, the State of Florida 
created seven Regional Domestic Security Task Forces (RSDTF's), 
generally coinciding with the geographic areas served by existing FDLE 
Regional Operations Centers. These task forces have served as the 
cornerstone of Florida's domestic security and anti-terrorism efforts 
since that time, and have achieved great success.
    In November 2001, the Florida Legislature met in special session 
and codified the domestic security task force structure into statute. 
These task forces serve under the policy direction of a multi-
disciplined oversight council, and at the regional level are co-chaired 
by a sitting Sheriff and the FDLE Special Agent in Charge serving that 
region. Their mission is to employ the coordinated resources of various 
local, state and federal agencies to prevent, preempt and disrupt any 
terrorist attack or other domestic security threats within the State of 
Florida; or, in the event of such an attack, to effectively respond to 
the incident to facilitate recovery and investigation. The law 
enforcement component of the Regional Domestic Security Task Force is 
coordinated by the FDLE. As stated, the RDSTF is comprised of law 
enforcement, fire/rescue, medical, emergency response and preparedness 
components. Law enforcement is the discipline responsible for 
coordinating with Federal authorities regarding enforcement efforts 
concerning immigration violations. It was quite apparent, based upon 
the nature of the 9/11 attacks and the limited Federal immigration 
resources in Florida at that time, that these RDSTF law enforcement 
components could become force multipliers to address immigration issues 
with a potential nexus to terrorism.
    The current ICE/RDSTF initiative evolved from a previous FDLE 
request to allow state law enforcement personnel to have direct access 
to the Legacy Immigration and Naturalization Service (INS) record 
systems and databases. In December 2001, the INS Assistant District 
Director for Investigations (ADDI) and FDLE leadership met to discuss 
the concept of using the provisions of Section 287(g) and consensus was 
reached as to the need for such a program.
    The initial proposal consisted of employing the time-proven, multi-
agency law enforcement task force approach, combined with the 
delegation of authority provisions of Section 287(g) of the Immigration 
and Nationality Act (INA). The initiative would designate a cadre of 
RDSTF-assigned state and local law enforcement officers who would be 
trained by INS in immigration law enforcement matters. INS enforcement 
authority would be delegated to those officers under Section 287(g) and 
they would work under the direct supervision of an INS Supervisor and 
the assigned RDSTF Special Agent Supervisor.
    The vetted 287(g) initiative was presented to Governor Bush, who 
concurred and directed FDLE to immediately pursue implementation. 
Shortly thereafter, Governor Bush presented the concept to Legacy INS 
Commissioner Ziglar and Attorney General Ashcroft in Washington, both 
of whom agreed the initiative should go forward.
    Legacy INS administrators began an in-service campaign to present 
the initiative proposal to the various levels of the Legacy INS command 
structure. These efforts, given the first-time and highly unique nature 
of the proposal, were often problematic. However, with the Legacy INS 
Commissioner's approval already a given, the initiative was accepted by 
the Legacy INS command at the Eastern Regional Office and Headquarters.
    With these conceptual approvals, members of the Legacy INS Office 
of Investigations (Miami) began working closely with FDLE to produce a 
draft written proposal for submission to INS Headquarters. After 
several revisions, a formal initiative proposal was finalized and 
ultimately approved by INS, DOJ and FDLE. The initiative proposal led 
to the finalization of a Memorandum of Understanding (MOU) which, after 
additional revision, was signed by United States Attorney General 
Ashcroft, Governor Bush, Commissioner Ziglar and Commissioner Moore in 
July 2002. In December 2003, this Memorandum of Understanding was 
renewed and signed by Department of Homeland Security Under Secretary 
Hutchinson and Florida Governor Bush.
    The Memorandum of Understanding (MOU) outlines a number of terms 
and conditions for this 287(g) authority. The foundation for these 
terms is that all investigative efforts must have a nexus to domestic 
security and counter terrorism. Other key terms included that all 
Regional Domestic Security Task Force members assigned to the 287(g) 
Program had to commit to serve a minimum of one year under this 
authority. All members were subject to a full background not only from 
the RSDTF, but also INS/ICE. They further had to attend and pass 
proficiency testing provided by INS/ICE.
    Implementing the provisions of the MOU began during April 2002 when 
Legacy INS Investigations selected seven Acting Supervisory Special 
Agents (ASSA's) and posted them in the seven RDSTF locations. The 
assigned ASSA's immediately engaged in operational liaison and local 
training efforts with the RDSTF. They also began initiating cases and 
making arrests in conjunction with the RDSTF. This spirit of 
cooperation was crucial during the initial phases of the program.
    Soon thereafter, the Immigration Officer Academy crafted a six-week 
training course featuring the delegation of authority curriculum. 
Legacy INS and FDLE, working with law enforcement agencies 
participating in the RDSTF, finalized the selection of 35 veteran law 
enforcement investigators as the initial cadre of delegated-authority 
officers.
    On July 9, 2002 the first-ever Section 287(g) training course 
began. The course covered immigration and nationality law, immigration 
criminal laws, removal statutes, civil rights, cultural diversity, 
alien processing, INS structure and record systems and employed the 
same testing criteria and techniques as basic Immigration Officer 
Training. On August 15, 2002, the course graduated all 35 participants, 
who then returned to their assigned RDSTF locations and became 
operational.
    During this formative period, the State of Florida, through the 
RSDTF's, expended considerable energy and time communicating the 
purpose of the program to various ethnic groups. This program received 
considerable publicity in Florida during its development in part 
because this was a new concept, but also due to Florida's highly 
diverse population and migrant farming communities. Some cultural 
groups expressed concerns related to any INS authority being delegated 
to state and local officers. The Office of the Governor, the RSDTF's 
and Legacy INS diligently worked to communicate exactly what Florida's 
intentions were with this program to the ethnic groups with concerns, 
including community and religious leaders representing Hispanics, 
Haitians and persons from countries in the Middle East. All 
participating agencies collaborated on, and later produced, an 
informative brochure that explained in simple terms, and multiple 
languages, the mission of the program. Additionally, we did not miss an 
opportunity to communicate our message via the print, radio and 
television media. I am proud to say on behalf of all the regions we 
have adhered to the spirit and letter of our MOU. Within this program 
there have been no examples where persons have been arrested or 
detained that were not directly related to a domestic security 
complaint or focused investigation. I cannot over emphasis the highly 
focused nature of the Florida initiative. In all cases, the ICE Team 
Leader to the RDSTF (formerly the INS ASSA), the FDLE Special Agent 
Supervisor and the local ICE Immigration Supervisor must agree on a 
decision to arrest or detain a person pursuant to the 287(g) authority. 
We respect individual rights and abide by all applicable state and 
federal law. We also mutually share and understand the concerns of our 
community and the participating agencies. Additionally, proactive 
criminal investigations involving the United States Attorney's Office 
receive further review to assure compliance with all applicable Federal 
laws and procedures. As of today, not one formal complaint (a procedure 
is provided for within the MOU) has been filed with FDLE related to 
this program.
    The reorganization of a number of federal agencies including INS 
into the Department of Homeland Security presented some challenges to 
our 287(g) Program. Not only has the Department of Homeland Security 
undertaken the massive responsibility of deciding appropriate roles and 
relationships within its structure, the Florida Department of Law 
Enforcement itself in October 2003 received a new Executive Director, 
Commissioner Guy Tunnell. During the months between September and 
December 2003, no direct action could be taken by our Cross Designated 
agents, as the Memorandum of Understanding was under revision and had 
not yet been finalized. In the Tampa Region, we carried on by working 
with the ICE Special Agent in Charge and his colleagues. I am proud to 
say that our previous accomplishments and established relationships 
served us well during this transition, and we continue to reap the 
benefits of these focused and highly coordinated efforts.
    Florida strongly supported an additional 287(g) Delegation of 
Authority Training Program, and in March of this year a second class 
was convened. During April, the ICE Academy graduated twenty-seven (27) 
additional Task Force Agents that were deployed back into the regions. 
Immediately following the graduation, senior leadership from FDLE and 
ICE met to discuss the future of the program. Each Region was directed 
to assess the current state of the program and develop a plan for 
continued operations. In Tampa Bay, regional ICE and FDLE leadership 
decided to continue to focus on areas that had provided value in the 
past. Proactive investigations concerning the impact of illegal 
immigrants on critical infrastructure, and diligent follow-up on 
complaints received concerning persons who appear to pose a domestic 
security threat, were and remain our regional priorities.
    There are currently ten (10) Regional Domestic Security Task Force 
Agents assigned to the ICE/RDSTF 287(g) project in the Tampa Bay area. 
These Agents represent seven different city, county and state agencies, 
and have statewide investigative and arrest authority granted by FDLE 
for the purpose of conducting domestic security investigations. The 
Task Force Agents (TFA's) work on a variety of assignments, but their 
first priority is to work on investigations concerning foreign 
nationals that are suspected of being involved in domestic security 
related issues. Many of the investigations to date have concerned 
nationals or citizens of countries designated as sponsors of terrorism 
or countries in areas of geographic concern. Additional investigations 
targeting unauthorized persons working in critical infrastructure have 
also resulted in a number of arrests and deportations. To date over 100 
persons have been arrested, and many more have been interviewed by 
trained officers who can more adequately determine if a person poses a 
threat based a number of variables, including knowledge gained by 
participating in the extensive ICE 287(g) training.
    To date, the arrests cover a broad spectrum of activity. We have 
arrested single individuals involved in what appears to be surveillance 
activities of sensitive locations. We have also conducted extensive 
investigations that have resulted in illegal aliens being apprehended 
working in restricted or secured areas of airports, seaports and 
nuclear plants. As with all preventive measures, we will never know for 
sure just how many terrorist or other criminal operations we has 
disrupted or impacted; however we can state that our commitment to 
follow all leads from citizens, the private sector and other government 
agencies in a diligent and organized manner continues.
    Operation ``Open Water'' is one example of how the 287(g) authority 
can be utilized in a multi-agency task force environment, and is 
representative of similar RDSTF operations in the State of Florida. 
Operation Open Water is a long-term investigation that was initiated 
based on a RDSTF effort to investigate instances of identity fraud and 
false statements used by subjects to obtain employment and access to 
restricted areas at the Port of Tampa. The investigation revealed the 
identities of subjects at the Port of Tampa who compromised or 
circumvented statutorily mandated port security measures by violating 
State of Florida or Federal laws. The investigation resulted in a 
number of indictments which lead to arrests, detentions and removals. 
The investigation was successful because it combined the efforts of a 
number of FDLE programs/initiatives and the training and expertise of 
the ICE 287(g) trained Agents and the ICE Lead Worker assigned to the 
RDSTF. In each case we also look for problems in the system, and work 
with the appropriate authorities to close loop holes, strengthen 
procedures, or recommend regulatory and/or statutory changes.
    The 287(g) authority granted to these specialized Agents has never 
been considered the single solution for any issue involving an 
immigrant suspect. Complete investigations surrounding these, and other 
persons of concern, are required to assure that law enforcement 
officers are following all leads to a logical conclusion. The 287(g) 
authority is one of many valuable tools in the legal ``tool belt'' 
afforded these Task Force Agents to impact suspects in domestic 
security cases. Participating agencies recognize this authority, 
coupled with appropriate training and oversight, add value to their 
organizations. Even today, this program acts as a force multiplier by 
allowing authorized local and state agents to screen incoming 
complaints and identify persons and leads worthy of follow-up 
investigation, without initially contacting the regional ICE office 
with every lead or complaint. Those leads or complaints that require 
further examination receive more attention at the appropriate levels.
    Ironically, this training and experience has proven to be a benefit 
to the immigrant communities because the Agents are more readily able 
to clear a person that is suspected of suspicious activity by having 
access to the wealth of information contained in ICE databases. In 
those cases where an immigrant is cleared of suspicion, but still has 
immigration issues, the subject is afforded the same consideration as 
an illegal alien not encountered under those circumstances.
    In closing, Florida strongly supports the continuation of the 
287(g) Cross Designation Program. We believe this authority provides a 
strong force multiplier for our federal partners and our collective 
efforts to prevent another terrorist attack. We remain ready and 
willing to assist our federal partners in these efforts. By remaining 
committed to our use of the trained personnel in domestic security 
related investigative efforts, we are assuring that these highly 
skilled officers will be put to the best use--thereby better protecting 
Florida and the nation.
    Again, thank you for this tremendous opportunity and I look forward 
to your questions.

    Mr. Rogers. Thank you, Mr. Dubina.
    The chair now recognizes the Major Charles E. Andrews, 
chief of the Administrative Division of the great state of 
Alabama, Department of Public Safety, for your statement.

                  STATEMENT OF CHARLES ANDREWS

    Major Andrews. Mr. Chair, distinguished members of the 
committee, thank you for the opportunity to be here and talk 
about the 287(g) Program in Alabama.
    The Alabama Highway Patrol began in 1935 and in the 
succeeding years has developed into the Alabama Department of 
Public Safety. The Alabama Department of Public Safety consists 
of the Administrative, Highway Patrol, Driver's License, 
Alabama Bureau of Investigations Service and Protective 
Services Divisions, employing 676 officers.
    In early 2003, the state of Alabama, through Governor Bob 
Riley's office, approached the Immigration and Naturalization 
Service. This contact was precipitated by the increase in 
forged documents presented by individuals applying for the 
Alabama driver's license and non-driver identification cards 
and the lack of presence of and access to immigration officers.
    At the time the Governor's Office contacted federal 
agencies, there were only three INS officers in the entire 
state of Alabama and in fact the state had only recently been 
assigned two of the three officers. Alabama U.S. Senator Jeff 
Sessions and his staff were helpful in communicating 
information about the 287(g) Program and establishing contact 
with INS.
    In April of 2003, Walt Hemple, a senior agent with INS, 
presented a briefing regarding the 287(g) Program to the 
Department's divisions, commanders and the DPS director, the 
Department's Montgomery headquarters. In discussions that 
followed this briefing, the Department and the Governor's 
Office determined that the 287(g) Program would aid public 
safety in its duty to protect and serve the citizens of the 
state of Alabama.
    In May, the Department began negotiating a memorandum of 
understanding with INS and in September 2003, the state of 
Alabama signed a memorandum of understanding with the U.S. 
Department of Homeland Security. This memorandum was authorized 
by the Immigration and Nationality Act of 1996, as amended by 
Section 133 of the Illegal Immigration Reform and Immigrant 
Responsibility Act of 1996, codified at 8 USC Section 1357(g).
    When the Alabama Department of Public Safety entered into 
the MOU, it believed it was the right course of action. Now, 
almost 2 years later, we can say we are certain that the 287(g) 
Program was and remains the right course of action.
    In December of 2003, Alabama State troopers and driver's 
license examiners received a 4-hour course of training in 
immigration documents and law from Walt Hemple and other ICE 
agents. In October 2003, 21 state troopers successfully 
completed 5 weeks of extensive immigration training and were 
sworn in by ICE to enforce federal immigration law.
    The first training class began September 3, 2003 and 
comprised a 5-week course taught at the Center of Domestic 
Preparedness, a Department of Homeland Security facility, 
located near Anniston, Alabama. The teaching staff was made up 
of instructors from the Federal Law Enforcement Training Center 
at Glencoe, Georgia. Subjects covered included nationality law, 
immigration law, document inspection and fraudulent documents, 
bias-based policing, statutory authority, removal charges and 
juvenile processing.
    Because the ICE training was held at the Center for 
Domestic Preparedness, the troopers were able to take part in 
ICE booking procedures at nearby Etowah County ICE holding 
facility and work with ICE at Atlanta's Hartsfield 
International Airport.
    Under the terms of the MOU, Public Safety spent about 
$40,000 in overtime and other expenses during the training of 
the 21 troopers. The Department of Homeland Security paid the 
remaining costs for the training.
    As part of the MOU, the Department has developed an 
outreach program to communicate with constituents the purpose 
of Alabama's involvement in the 287(g) Program. This outreach 
began when Juan Carlos Lara, a consular officer with the 
Mexican Consulate in Atlanta, Georgia, addressed the troopers 
while they were still training at the Center for Domestic 
Preparedness. The Department also hosted a program in 
Montgomery for leaders of foreign national organizations and 
other interested parties from throughout the state in 2003.
    The director of the Department has taken part in a number 
of panel discussions at various gatherings of foreign nationals 
in Birmingham and other locales throughout the state. The 
Department's Public Information staff has appeared on numerous 
radio talk shows that cater to foreign nationals and regularly 
conducts interviews regarding the program.
    The main point the Department works to communicate is that 
Alabama's program is reactive and not proactive and that 
troopers must have state probable cause before they arrest 
anyone.
    It is important to note, too, that the MOU includes a 
formal complaint procedure and that DPS has not received the 
first complaint regarding its 287(g) participation.
    Since their October 3, 2003, graduation, these ICE-trained 
troopers have made several arrests of illegal immigrants in the 
course of their regular duties, including 44 cases accepted for 
federal prosecution. Five of these arrests were of previously 
deported illegal immigrants with felony convictions. The MOU 
troopers also have made two cases of bulk cash smuggling and 
seized $690,113.
    Make no mistake, these 21 ICE-trained troopers are not 
federal immigration officers. They remain Alabama state 
troopers with primary duties in the Alabama Department of 
Public Safety's Highway Patrol and Driver's License divisions, 
and that is precisely why the 287(g) Program has been so 
successful in Alabama. These troopers enforce federal 
immigration law only as needed while carrying out their regular 
duties as Alabama state troopers.
    Alabama's MOU with Homeland Security is a reasonable, 
common-sense platform that results in a win-win outcome both 
for the law enforcement community and for the citizens whom we 
serve.
    Thank you for this opportunity to testify.
    [The statement of Major Andrews follows:]

                Prepared Statement of Charles E. Andrews

    The Alabama Highway Patrol began in 1935, and in the succeeding 
years, has developed into the Alabama Department of Public Safety. The 
Alabama Department of Public Safety consists of the Administrative, 
Highway Patrol, Driver License, Alabama Bureau of Investigation, 
Service and Protective Services divisions, employing 676 sworn 
officers.
    In early 2003, the state of Alabama, through Governor Bob Riley's 
office, approached the Immigration and Naturalization Service. This 
contact was precipitated by the increase in forged documents presented 
by individuals applying for Alabama driver license and non-driver 
identification cards, and the lack of presence of and access to 
Immigration officers. At the time the governor's office contacted the 
federal agency, there were only three INS officers in the entire state 
of Alabama, and, in fact, the state had only recently been assigned two 
of the three officers.
    Alabama U.S. Senator Jeff Sessions and his staff were helpful in 
communicating information about the 287(g) program and in establishing 
liaison with INS. In April 2003, Walt Hempel, a senior agent with INS, 
presented a briefing regarding the 287(g) program to the department's 
division commanders and the DPS director at the department's Montgomery 
headquarters. In discussions that followed this briefing, the 
department and the governor's office determined that the 287(g) program 
would aid Public Safety in its duty to protect and serve the people of 
the state of Alabama.
    In May the department began negotiating a memorandum of 
understanding with INS, and in September 2003, the state of Alabama 
signed a memorandum of understanding with the U.S. Department of 
Homeland Security. This memorandum was authorized by the Immigration 
and Nationality Act of 1996, as amended by Sec. 133 of the Illegal 
Immigration Reform and Immigrant Responsibility Act of 1996; codified 
at 8 U.S.C. Sec. 1357(g).
    When the Alabama Department of Public Safety entered into the MOU, 
it believed it was the right course of action. Now, almost two years 
later, we can say with certainty the 287(g) program was and remains the 
right course of action.
    In the summer of 2003, Alabama state troopers and driver license 
examiners received a four-hour course of training in immigration 
documents and law from Walt Hempel and other ICE agents. In October 
2003, 21 state troopers successfully completed five weeks of extensive 
immigration training and were sworn in by ICE to enforce federal 
immigration law.
    This first training class began September 3, 2003, and comprised a 
five-week course taught at the Center for Domestic Preparedness, a DHS 
facility located near Anniston, Alabama. The teaching staff was made up 
of instructors from the Federal Law Enforcement Training Center at 
Glencoe, Georgia.
    Subjects covered included Nationality Law, Immigration Law, 
Document Inspection and Fraudulent Documents, Bias-based Policing, 
Statutory Authority, Removal Charges, and Juvenile Processing. Because 
the ICE training was held at the Center for Domestic Preparedness, the 
troopers were able to take part in ICE booking procedures at the nearby 
Etowah County ICE holding facility and work with ICE at Atlanta's 
Hartsfield International Airport. Under the terms of the MOU, Public 
Safety spent about $40,000 in overtime and other expenses during the 
training of the 21 troopers. The Department of Homeland Security paid 
the remaining costs for the training.
    As part of the MOU, the department has developed an outreach 
program to communicate with constituents the purpose of Alabama's 
involvement in the 287(g) program. This outreach began when Juan Carlos 
Lara, a consular officer with the Mexican Consulate in Atlanta, 
Georgia, addressed the troopers while they were still in training at 
the Center for Domestic Preparedness. The department also hosted a 
program in Montgomery for leaders of foreign national organizations and 
other interested parties from throughout the state in 2003. The 
director of the department has taken part in a number of panel 
discussions at various gatherings of foreign nationals in Birmingham 
and other locales throughout the state. The department's Public 
Information staff has appeared on numerous radio talk shows that cater 
to foreign nationals and regularly conducts interviews regarding the 
program. The main point the department works to communicate is that 
Alabama's program is reactive, not proactive, and that troopers must 
have state probable cause before they arrest anyone. It is important to 
note, too, that the MOU includes a formal complaint procedure and that 
DPS has not received the first complaint regarding its 287(g) 
participation.
    Since their October 3, 2003, graduation, these 21 ICE-trained 
troopers have made several arrests of illegal immigrants in the course 
of their regular duties, including 44 cases accepted for federal 
prosecution. Five of these arrests were of previously deported illegal 
immigrants with felony convictions. The MOU troopers also have made two 
cases of bulk cash smuggling (Sec. 31 USC 5332) and seized $690,113.
    Make no mistake: these 21 ICE-trained troopers are not federal 
immigration officers. They remain Alabama state troopers with primary 
duties in the Alabama Department of Public Safety's Highway Patrol and 
Driver License divisions, and that is precisely why the 287(g) program 
has been so successful in Alabama. These troopers enforce federal 
immigration law only as needed while carrying out their regular duties 
as Alabama state troopers.
    Alabama's MOU with Homeland Security is a reasonable, common-sense 
platform that results in a win-win outcome both for the law enforcement 
community and for the citizens whom we serve.
    I mentioned arrests a few moments ago. Have we made a significant 
number of arrests as part of this program? No, and we wouldn't expect 
to. But the arrests themselves are significant.
    The first arrest was of a Korean man who applied for an Alabama 
driver license. He presented as his own a resident alien card belonging 
to a female. When the driver license examiner ran an NCIC report, which 
is routine procedure in Alabama, the examiner learned the applicant had 
prior convictions for armed robbery and two cases of possession of 
controlled substances. An MOU trooper detained the subject until ICE 
officers arrived.
    Three examples of arrests made by MOU-trained Highway Patrol 
troopers are:
    In one incident, a trooper stopped a vehicle on an interstate in 
Alabama for a routine traffic violation. The trooper found that both 
occupants of the vehicle had outstanding warrants and were aggravated 
felons. Both also had been previously deported. The two were turned 
over to ICE.
    A second incident involved a van in Tuscaloosa County traveling on 
Interstate 20/59, which was stopped for a traffic violation by one of 
our Motor Carrier Safety units. The trooper received conflicting 
information from both the driver and front-seat passenger. There were a 
total of 16 persons in the van, which was going to Atlanta. They were 
detained, taken to the Tuscaloosa Post, and ICE was called. The MOU 
troopers started interviewing the driver, front-seat passenger and the 
other 14 passengers and initiated the necessary paper work. When the 
Immigration agents arrived, the troopers had processed the 16 
occupants, including interview sheets and fingerprint cards. The two 
drivers were charge with trafficking, and the other passengers were 
returned home by ICE. Troopers charged the driver with various DOT 
violations.
    The third incident involved a stop of a foreign national for 
speeding on Interstate 65. The trooper ran the driver's license number 
and discovered it was not on file. The trooper contacted an MOU-trained 
trooper who, along with an ICE agent, went to the scene. Using the 
National Records database, the ICE-trained trooper was able to 
determine that the driver previously had been arrested in Denver in 
1969, for entering the United States illegally. The driver was taken 
into custody by the ICE agent and transported to the ICE facility in 
Etowah County. The state trooper charged the driver with no state 
driver license, no proof of insurance and traveling 87 mph in a 50 mph 
construction zone.
    Since the 1990s, the department has fielded an extremely aggressive 
anti-fraud program in driver licensing, with which the 287(g) program 
is entirely consistent. Just in the course of driver licensing, 
troopers make almost 5,000 arrests each year on a multitude of charges 
and outstanding warrants. One such arrest occurred November 22, 2004, 
in Opelika. A driver license examiner consulted one of our MOU troopers 
regarding a Social Security card she believed to be fraudulent. After 
examining the card, the MOU trooper determined it was, indeed, 
fraudulent. The trooper called the Social Security Administration and 
tried to verify the Social Security number on the card, but the number 
was invalid. The name on the card was Lisa Simone Hamilton. The MOU 
trooper called the female applicant into her office, told her she was 
under arrest for possession of a forged instrument, second degree, 
because of the Social Security card, and then tried to place handcuffs 
on her. The applicant immediately began to yell, ``It's not mine!'' 
then pushed the trooper, grabbed her purse and tried to leave the 
office. The woman continued to resist arrest to the point of breaking 
the arm of one of the driver license examiners and breaking the glass 
out of the front door. Once outside the building, the trooper was able 
to gain control of the applicant and cuff one arm while she was on the 
ground. An ambulance arrived and transported the injured driver license 
examiner to the hospital, and the applicant was then placed into a 
patrol car and transported to jail. It was determined that her name was 
Uchechukwuka Odita and she already was engaged in deportation 
proceedings. She also had in her possession a U.S. passport bearing the 
same name as the Social Security card. The passport, however, had Ms. 
Odita's picture on it.
    The Alabama Department of Public Safety's responsibility is to 
protect and to serve everyone in Alabama, and the 287(g) program is a 
valuable tool that helps Alabama's troopers do a better job protecting 
and serving our state and nation. That is why the Alabama Department of 
Public Safety, Governor Riley and Senator Sessions have requested and 
ICE has agreed to retraining the 21 ICE-trained troopers and training a 
second class of 25 troopers.

                             For the Record

        CAS Wage and Baggage Handler Point Paper for John Martin

    I. Screener Compensation. As of June 30,2005, Covenant Aviation 
Security's (CAS) base wage for Screeners at San Francisco International 
Airport is as follows:

----------------------------------------------------------------------------------------------------------------
     San Francisco Airport (SFO)               Screener              Lead Screener            Supv Screener
----------------------------------------------------------------------------------------------------------------
CAS Avg Direct Labor Rate                      $17.74 per hour          $23.39 per hour          $27.91 per hour
----------------------------------------------------------------------------------------------------------------

    In terms of comparing CAS' wages and benefits at SFO to the TSA's 
wages and benefits in the San Francisco Bay area, neither CAS nor SFO 
have access to TSA's current wage information. The last published wage 
data from the TSA is from August, 2004. At that time, the comparison 
between CAS' hourly wages and benefits and the TSA's is as follows:

----------------------------------------------------------------------------------------------------------------
      Covenant Aviation Security Wages and Benefits at SFO           Screener      Lead Screener   Supv Screener
----------------------------------------------------------------------------------------------------------------
CAS Direct Labor Rate                                                     $17.39          $22.93          $27.36
----------------------------------------------------------------------------------------------------------------
1. CAS Fringe Benefit Rate                                                   35%             35%             35%
----------------------------------------------------------------------------------------------------------------
3. Combined CAS Wage and Fringe Benefit Rate                              $23.48          $30.96          $36.94
================================================================================================================

TSA Wages and Benefits in the Bay Area                                  Screener   Lead Screener   Supv Screener
----------------------------------------------------------------------------------------------------------------
1.TSA's Direct Labor Rate                                                 $14.92          $19.44          $23.17
----------------------------------------------------------------------------------------------------------------
2. TSA's Fringe Benefit Rate                                              44.75%          44.75%          44.75%
----------------------------------------------------------------------------------------------------------------
3. Combined TSA Wage and Fringe Benefit Rate                              $21.59          $28.14          $33.53
----------------------------------------------------------------------------------------------------------------

    CAS' wages and benefits are fully compliant with the requirements 
of the Aviation Transportation Security Act (ATSA), the Fair Labor 
Standards Act, and all TSA contract requirements.

    II. Baggage Handlers. CAS currently employs 73 Baggage Handlers at 
SFO. Their current wages are $12.61 per hour. When CAS' benefit package 
is Included, their total remuneration (wage plus fringe benefits) is 
$16.96 an hour.
    The purpose of Baggage Handlers at SFO is to relieve CAS' Screeners 
from the burden of lifting and carrying heavy baggage. This allows CAS' 
Screeners to focus exclusively on screening passengers, thereby 
increasing screening efficiency. Also, because the Baggage Handlers 
position has a greater physical capabilities requirement than does a 
Screener position (couple with the fact that CAS Baggage Handlers go 
through extensive ``safety lifting'' training), the introduction of 
Baggage Handle as greatly reduced the frequency and severity of on-the-
job injuries to CAS' Screening force. As a result, Baggage Handlers are 
seen by CAS' Screening workforce as a welcomed complement to CAS' 
overall screening operation. CAS Screener's and Baggage Handlers work 
together as a integrated team, and because each position is able to 
focus on what they do best, there is greater team cohesion and espirit 
de corps than was the case before CAS introduced Handlers. In addition, 
there is a natural career progression from being a Baggage to becoming 
a Screener (i.e.'' because CAS Baggage Handlers have already passed 
background checks, they are given the opportunity to become Screeners 
if they are able to pass the additional Screening tests).
    CAS' Baggage Handlers fall under the cognizance of the Service 
Contract Act (SCA) and CAS currently exceeds the SCA's minimum 
requirements. Also, because CAS has absorbed its Baggage Handlers 
within the TSA' Full-Time-Equivalency (FTE) staffing allotment for SFO, 
the introduction of Baggage Handlers did not increase contract value.

    Mr. Rogers. Thank you, Mr. Andrews, for your statement.
    Thank all the panelists for your statement.
    At this time, I have a few questions I would like to ask.
    First, Mr. Andrews, one of the concerns that has been 
voiced by immigrant groups about the 287(g) Program is their 
concern over racial profiling. Can you describe for us your 
Alabama experience on this issue and any concerns or problems 
that have arisen with regard to racial profiling?
    Major Andrews. Yes, sir. Before we entered into this 
agreement, the policy of the Alabama Department of Public 
Safety was not to condone racial profiling. We have a formal 
policy against that, which also applies to the 287(g) Program. 
There is a complaint process that is required as a part of the 
memorandum of understanding where complaints or comments can be 
filed with either the Department of Public Safety or with the 
ICE supervisors concerning any complaints of racial profiling.
    And we have policies in order to deal with any officer that 
engages in such conduct, and it is not acceptable, not 
tolerated by our Department.
    Mr. Rogers. To your knowledge, have there been any 
complaints about racial profiling in your state--
    Major Andrews. No, sir.
    Mr. Rogers. --since the inception of the program?
    Major Andrews. No, sir.
    Mr. Rogers. Thank you.
    Mr. Dubina, I would like to ask the same question of you 
with regard to Florida. Are you aware of any complaints in 
Florida with your experience in the 287(g) Program with racial 
profiling?
    Mr. Dubina. No, sir. And to echo the words of the Major, 
most of what he said applies in Florida also. I would also 
again like to point out that not only in these officers' 
training as Florida law enforcement officers, certified 
officers, but also in their training as ICE designated 
officers, they go through a series of programs involving 
cultural sensitivity and racial profiling issues so that they 
are very aware that those are concerns of the community and 
their supervisors.
    Mr. Rogers. And I would ask each of you a question in each 
of your respective states, Mr. Dubina and Mr. Andrews. We have 
referenced a number of officers who participated in this 
training. Is it your belief that there would be a high demand 
for more of this training if we made the funds available?
    I will start with you, Mr. Dubina.
    Mr. Dubina. Well, I think one thing we have to realize is 
that this is very intense training, it is 5 weeks, and then 
there is a commitment to ICE following the training. So while I 
believe there are agencies out there, including my own agency, 
that would like to further take advantage of this program, I do 
not see in the future literally hundreds of people being 
involved. I think it is a very focused directed program, and 
the people that come out of there are highly trained and very 
professional in the way they do their business.
    Mr. Rogers. Mr. Andrews?
    Major Andrews. I agree with Mr. Dubina. We are very 
selective in the individuals that we select to participate in 
this program. I do believe that we see them as a force 
multiplier. There is a need for some additional troopers to be 
trained in this area, because we constantly encounter 
individuals who presented us with fraudulent documents, and as 
we get into checking their backgrounds, we find more and more 
of them who are not here legally.
    Mr. Rogers. Thank you.
    Mr. Kilcoyne, in your written testimony, you state that the 
287(g) Program will ``better serve the people of the United 
States in ICE's vision in the nation's prisons and jails.''
    Now, we have heard testimony today from the panelists about 
how well this program has worked in Florida and Alabama in its 
current status. Your remarks seem to support what we have heard 
from several states that the Department has either considering 
or has already set a policy.
    In the future, the 287(g) Program will only be implemented 
in the custodial setting, and your remarks seem to support that 
suggestion. Is that true?
    Mr. Kilcoyne. Yes, sir, it is. And I think we have to keep 
in mind that with existing resources and existing assets that 
we have, we have to be able to manage this program effectively 
and wisely so that the end result does not occur as what 
occurred before in that if a call comes in to the LESC or to an 
ICE office, that there is a van-load or a car-load of suspected 
illegal aliens alongside the highway and we are not able to 
respond at all, then we have not accomplished anything if we 
are making the stop and not being able to respond or the state 
and locals are making the stop and we are also not able to 
respond.
    The lessons that I think we have learned from Alabama and 
Florida is that we have to make sure that in those two states, 
through using the steering committee concept, through continued 
dialogue with the management of the entities there, that we 
maintain a very focused approach to this.
    Implementation of the program, as the gentleman from 
Florida Department of Law Enforcement stated, we just recently 
focused on the airport, on violent sexual offenders or 
predators. The seaports, those are people who have access to 
critical locations and critical areas within those airports or 
within the seaport.
    The same with expanding it in Alabama where the Major 
mentioned the fraudulent documents, obtaining other documents. 
Those are the individuals that we want to focus on, because 
when they come into the Department of Motor Vehicles within 
Alabama, chances are they are bringing other documents with 
them to obtain additional fraudulent documents. So they bring 
the evidence with them, and we are able to go after an 
organization who is supplying the documents or it gives us a 
starting point for criminal investigation.
    What we are trying to do is to work smarter with the 
application of the program into the jails where we have a focus 
on those individuals who are going to be in custody for a 
period of time for the charges that got them there originally, 
whether it is burglary or drunk driving or car theft or 
whatever.
    Then we are able to manage our resources so that as that 
individual does his time, that we are able to, upon release for 
the charges that got him there in the first place, we are able 
to take them, put them on a plane or a bus or a whatever and 
deport them out of the United States.
    Now, if we manage that correctly, there is a byproduct for 
the states, and that would be the reduction in cost that the 
state or county would have to incur for supervision on 
probation or parole. So we are able to take them and remove 
them, and then they do not have to incur the costs for that 
type of supervision. That is the direction with the resources 
that we have available that we are trying to go. Improve and 
continue to sharpen the focus in Florida and Alabama and expand 
it in that direction is the direction that we are trying to go.
    Mr. Rogers. Thank you. Unfortunately, my time has expired.
    The chair now recognizes the ranking member, Mr. Meek of 
Florida, for any questions he may have.
    Mr. Meek. Thank you so very much, Mr. Chairman.
    Mr. Kilcoyne, I want to ask you another question as it 
relates. You mentioned the memorandums of understanding and 
also this committee that is supposed to be formed, I know, in 
the Florida Department of Law Enforcement with the commissioner 
and with Homeland Security to talk about the effectiveness of 
the 287 Program. Also, the same language is in the MOU as it 
relates to Alabama.
    What have we found as it relates to the effectiveness of 
protecting the homeland?
    Mr. Kilcoyne. Well, I think one of the important--
addressing the first part, as far as the steering committee--I 
think that it is essential for this program to work and to work 
effectively is that there is an open and continued dialogue at 
the local level between the Special Agent in Charge for ICE, 
the Special Agent in Charge for the Florida Department of Law 
Enforcement; in Alabama, between our Special Agent in Charge or 
our Resident Agent in Charge and the command staff for the 
Highway Patrol.
    They need to be able to use this program and focus this 
program on the specific needs with specific examples as they 
have both testified to.
    Mr. Meek. I am sorry, I do not want to cut you off, but I 
have limited time and I have a couple other questions.
    But I want to--especially if you could address the part of 
domestic security and counterterrorism, the steering committee, 
because that is in the MOU. When we talk about counterterrorism 
I know that your testimony has been mainly targeted toward once 
an individual is already arrested that they run through the 
system.
    Miami-Dade County, a county I represent, is a part of that 
effort in making sure that these individuals are not released 
and that you are able to keep them. But I am talking about for 
the trained individuals. From what I understand--and correct me 
if I am wrong, Major or Special Agent--in Florida, we have 35 
individuals that were trained, I think, in August of 2002 and 
27 law enforcement. And I guess do we have also DO inspectors 
that were a part of that, 27 of them. And in Alabama, I 
understand that 21 troopers have gone through this program 
since 2003.
    I am trying to figure out as it relates to the 
counterterrorism, because what we are trying to heads toward 
here is making sure that our federal dollar, if we are to 
participate, continue to try to build more dollars on to it. 
And there has been efforts here by members of this committee to 
put money into this program, and it was not shallow language, 
it was main language.
    How are we targeting that, the steering committees, versus 
landscape architect gets pulled over for expired tag and we 
find out that he is an illegal alien and we want to deport him. 
In the reality, how quick does that deportation take place, and 
how is that individual found as a high value individual to be 
deported?
    Mr. Kilcoyne. Well, I think as the Major talked about as 
far as the bulk cash smuggling case, other cases in the DMVs in 
Florida, the efforts in the airports and the seaports, I mean, 
what we are trying to do is go after criminal aliens and those 
individuals that are involved in criminal activity and not the 
landscaping type of individuals.
    When you go after and you come across, it is an 
investigative tool or an interdiction type of a tool for both 
of those departments to use to be able to get you into an 
organization to identify a system or a border security 
vulnerability in that.
    For example, in Alabama, if the troopers were to stop a van 
and the van would have workers in it or people who have paid 
money to be transported from Mexico to the Carolinas, let's 
say, well, our real interest is the individual that is driving 
the van, the organization that is receiving the money from 
those individuals.
    How are the individuals getting through the border? Where 
is the money going? What are they buying? What else are they 
bringing in? Are they bringing in contraband, narcotics? Are 
they bringing in just people? Are they bringing cash backwards? 
That is what we are looking for, that is the ultimate goal in 
this, because that is our mission.
    Mr. Meek. So, Mr. Kilcoyne, your testimony is that we are 
expecting a state trooper or a local law enforcement officer to 
carry out that kind of investigation based on the training that 
they have?
    Mr. Kilcoyne. No. Let me--
    Mr. Meek. I see members are here. We are going to have, I 
believe, another round or so. We will be able to talk about it 
a little bit more. I am very interested in the program, because 
I know when law enforcement officers are trained in a certain 
thing, need it be breathalyzer or need it be enforcement as it 
relates to drugs, recognition expert, it is training.
    I do not know how far we can take it, but I am mainly 
concerned about the cost that these local law enforcement 
agencies have to undertake in this issue. And also maybe the 
individuals we should have here before us, Mr. Chairman, in the 
future are state legislatures that are having to pay and also 
administrators that are having to replace those individuals 
when they come off the road for the training.
    I am very interested in the program. I am not against the 
program. I just want to make sure that it is making itself 
attractive to members of Congress and the administration 
because there has not been any money earmarked for states to be 
able to draw down, and there is an effort here to do that.
    So thank you.
    And I am sorry, Mr. Chairman, for going over.
    But our second round you can save your answer. Giving you 
first shot at it.
    Mr. Kilcoyne. Thank you.
    Mr. Rogers. The gentleman yields back.
    The chair now recognizes the chairman of the full 
committee, Mr. Cox from California, for any questions he may 
have.
    Mr. Cox. Thank you, Mr. Chairman.
    This is a very, very important hearing from my standpoint 
because we are starting to dig into the questions of why we 
have not done a much better job of implementing Section 287(g) 
and why it costs so darn much and why we are hearing from 
states that the biggest impediment to implementation is in fact 
ICE and that ICE is not supportive of the program.
    These are comments that we hear repeatedly from states that 
are of great concern to this committee, and I hope that we can 
do a much better job in the future of using this very, very 
important tool of law enforcement.
    I know, because I have had so many conversations with law 
enforcement around the country, that many, many states and 
subdivisions of states are interested in partnering with the 
federal government and sharing this responsibility, which is 
the nature of homeland security. When we created the Department 
of Homeland Security and when we, as a nation, embarked upon 
this mission of homeland security, the touchstone was then and 
is now and will be in the future sharing in ways that we never 
did before.
    Obviously, the nation is overwhelmed by the number of 
people violating our immigration laws with impunity, and, 
obviously, the number of federal officers is inadequate to the 
task of enforcing the law against so many people. What we need 
is a force multiplier. We have that in the men and women in 
uniform across our country that enforce routinely other federal 
laws.
    What the federal law in this case requires is that anyone 
operating under the jurisdiction of a state or local government 
who wishes to enforce immigration law can do so if they are 
trained in federal law.
    So my first question for our ICE witness, Mr. Kilcoyne, is 
whether or not in your view there is anything that requires 
that this training in federal law be done by the federal 
government?
    Mr. Kilcoyne. Well, I believe it is ICE's responsibility, 
since we are responsible for the Title 8 violation of law, I 
think it is our responsibility to manage this program and to 
conduct the training.
    Mr. Cox. But I want of ask the question more specifically. 
Do you think there is any reason that in addition to the 
federal government performing this training that somebody else 
could not perform the training?
    Mr. Kilcoyne. Such as contractors, the state government?
    Mr. Cox. Well, let me read you the law. The law says that, 
``An officer or employee of the state or political subdivision 
of a state performing a function of the immigration law shall 
have knowledge of and adhere to federal law relating to the 
function.''
    Now, is there anything in that that requires that that 
knowledge be imparted by the federal government? I learned a 
whole lot about federal law by going to law school, and my law 
school was not owned and operated by the federal government. I 
have learned a lot about federal law in many other ways. Is 
there anything in nature or law that requires that this 
training be done by the federal government and by ICE? Can we 
get more people involved in this and do it faster, better and 
cheaper?
    Mr. Kilcoyne. That I do not know. I mean, I would have to 
defer to the policy makers and the attorneys to give a 
definitive answer to that that we could get back to you on.
    Mr. Cox. Well, I am looking at some numbers here--Mr. 
Chairman, do you have that data that we were just discussing, 
here is it right here--that suggests that we are looking at 
$171,000 for training for 50 students. And I apologize that I 
was not here if you have gone over these figures before, Mr. 
Chairman, but what is the source of this figure?
    Mr. Rogers. We received this this morning just before the 
hearing. I had asked yesterday of our staff--
    Mr. Cox. ICE is the source of this?
    Mr. Rogers. The source from ICE, yes, sir, the training 
costs.
    Mr. Cox. So, Mr. Kilcoyne, are you telling this committee 
that the number, $171,104, is correct for a basic class for 50 
students?
    Mr. Kilcoyne. Let me check on that. Yes, that is correct. 
That is from a number that the ICE Academy staff put together 
as to what the cost is to put on one of the cross-training 
classes.
    Mr. Cox. Mr. Chairman, I see that my time has expired. I 
think that number is way, way, way too high, that the taxpayers 
are being ripped off and that we are not accomplishing the 
statutory purpose as the author of the legislation that we are 
talking about here, the 287(g) provision. I have a pretty 
strong sense of what is the intent of Congress here. It is very 
clear that ICE is frustrating it.
    I yield back.
    Mr. Rogers. Thank you, Mr. Chairman, and I agree. There is 
a series of questions I know I am going to have in my second 
round about these particular numbers, which we received just 
before the hearing today, but I think they are astronomical and 
indefensible, and I do want to know more about them.
    With that, the chair will yield for the ranking member of 
the full committee, Mr. Thompson of Mississippi, for any 
questions he may have.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Following that line of questioning, Mr. Kilcoyne, are we 
taking resources from ICE that could go for hiring full-time 
people to support this program?
    Mr. Kilcoyne. At this time, no. During the timeframe that 
we put these training courses on for both Alabama and Florida, 
we were in a hiring freeze, so we had these individuals 
available to provide the training. Now we are in kind of the 
flipside to that in that we have ramping up again for hiring of 
basic immigration enforcement agents for--
    Mr. Thompson. Thank you. So the freeze is off. So if my 
state decides to participate in this program, will it take some 
resources that you have dedicated to hiring personnel to 
provide that training?
    Mr. Kilcoyne. I believe so, yes.
    Mr. Thompson. Thank you.
    I want to also talk about--this is to Major Andrews--if one 
of your troopers find one of the violators and they have to go 
to court under this present program, who pays for that 
trooper's time when they have to go to court?
    Major Andrews. At the present time, the Department of 
Public Safety absorbs those expenditures.
    Mr. Thompson. Mr. Chairman, that is one of my concerns is 
on its face this program looks like the force multiplier takes 
effect, but it is really a cost to local government, and you 
take that trooper who is in court is now off the roads of the 
state of Alabama, and those communities that they are sworn to 
serve and protect are one less sworn officer to do their duty.
    So I am concerned that we are just kind of shifting this 
federal responsibility to the local level, and even when we do 
it, we do not accept our responsibility to pay for the cost of 
it. So it is almost like smoke and mirrors that we are putting 
this burden.
    Moving a little further, Mr. Kilcoyne, what is the 
complaint process under the MOU?
    Mr. Kilcoyne. The complaint process is a very complex, 
detailed part of the MOU. There is an appendix to it, so both 
signatories understand the process to be able to utilize their 
own existing complaint process, and then it would come up to 
either the Major's level or my level and be dealt with 
collectively, if need be. But it would be what you as a 
motorist would have in your state as a way to complain about 
the way you were dealt with, the same as if it was us involved.
    Mr. Thompson. Excuse me. So if the Florida Department of 
Public Safety had a complaint based on an arrest or some 
situation, who has jurisdiction of the complaint? Is it Florida 
or the Department of Public Safety or is it ICE?
    Mr. Kilcoyne. Well, I think it would depend on exactly what 
part and what the issues of the complaint were. If it was the 
initial stop or the way the individual was dealt with up until 
the point where they were turned over to us, then Florida would 
handle that. If it was after they were turned over to us, then 
we would handle that part of the complaint.
    Mr. Thompson. Well, if you would, for both Florida and 
Alabama, I would like for you to provide this committee with 
the written complaint procedures for either one of those 
situations that you said, whether it is the initial stop or 
whether it is one where ICE has the responsibility.
    I am a little concerned that it might not be as clear as it 
needs to be, and in all respect, when you put the two 
jurisdictions together, that individual who is stopped is 
probably traumatized and in some situations would not know what 
to do. So I would like to see for myself what the written 
policy that you have established for complaints.
    Now, that goes to the point of the forms that you provide 
the individual who have complaints or whatever the process is. 
I think members of the committee would want to see it.
    Mr. Kilcoyne. Okay. We can get that to you.
    Mr. Thompson. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Rogers. Gentleman yields back.
    I thank the ranking member for his questions. He makes an 
excellent point about what has been the practice, and that is 
that we have been seeing cost shifting from us to the state and 
local government.
    I would like for the record, though, to emphasize that in 
this year's authorization this committee authorized $40 million 
for this program, and the Appropriations Committee is 
appropriating $5 million of that.
    And in this appropriations, the state and local governments 
will be allowed to reimburse their local governments for the 
backfill and overtime costs, so we will see that practice 
stopped, respectively. But you are right, it has been 
happening.
    Mr. Thompson. Well, if the gentleman will yield, I think, 
Mr. Chairman, one of the concerns is that is probably one of 
the reasons we have not had any--
    Mr. Rogers. I agree.
    Mr. Thompson. --participation in the program. I do not 
think people see the value.
    Mr. Rogers. I agree. Thank you.
    And with that, the chair now recognizes the gentleman from 
Pennsylvania, Mr. Dent, for any questions he may have.
    Mr. Dent. Well, thank you.
    Mr. Kilcoyne, I had a question for you. What benefits, 
especially security benefits, has ICE realized by taking 
advantage of willing partners such as Florida and Alabama? And 
I will just say in my state of Pennsylvania I have had law 
enforcement officials say to me when they have apprehended an 
illegal alien for whatever reason that they get very little 
support from ICE.
    My point is, if we encourage our local law enforcement 
officials to participate in this program, I would just like to 
get your perspectives on the success of Florida and Alabama and 
what do I tell my local law enforcement officials?
    Thank you.
    Mr. Kilcoyne. Well, I believe the successes are, again, 
giving ICE an opportunity to take the stop or the encounter 
that the state police or the Florida Department of Law 
Enforcement or even in Pennsylvania to take that and to try to 
disrupt and dismantle the organization responsible for that 
with our new authorities as far as the combined agencies with 
the authorities from Customs and the INS.
    And the departments, let's say, in your state, in 
Pennsylvania, where you have been working very diligently with, 
especially in the Pittsburgh area, to allow them immediate 
access to the Law Enforcement Support Center so that they can 
make determinations on the side of the highway or in their 
precincts or their posts or wherever they may be conducting the 
interview and to get them that information back as quickly as 
possible and in some instances where an identification and a 
determination has been made to issue a detainer to hold that 
individual until we can get there.
    The successes are there has been several hundred cases and 
leads between Alabama and Florida, organizations responsible 
for the manufacturing of fraudulent documents or feeder 
documents, breeder documents, the seizure of cash by the 
troopers from organizations responsible for the movement of 
these individuals. That is where we are trying to go to try to 
identify those individuals who have access to sensitive 
locations, to secure locations.
    And it is a way for the local law enforcement, whether it 
is in a highway stop setting or in the Department of Law 
Enforcement in Florida setting through, let's say, the 
detectives, or even in a jail setting, it is just another tool 
for those agencies to be able to make sure that we know exactly 
who the individual is and what their status is here and if they 
should be deported out of the country or if they can provide 
information on those organizations responsible for how they got 
here. That is our end game is to try to disrupt and dismantle 
the organizations responsible for the flow of these individuals 
across the border.
    Mr. Dent. Well, I guess I just wanted you to be aware of 
the concerns that were expressed to me by my state police and 
local police. Well, it just seems to me that we are not a 
border state, not like Texas or California or Arizona where I 
am sure you have to deal with this on a much broader and larger 
basis, but in a state like mine where we have less of an issue 
with illegals so that we have an issue but not as big as some 
of the other states, that they are experiencing difficulties. I 
cannot imagine what some of these other states are going 
through.
    So I just wanted to make sure that I got that point out on 
the record, and I will talk to my state police and make them 
aware of your comments here today, and hopefully things will 
improve. Thank you.
    Mr. Rogers. The gentleman yields back.
    The chair now recognizes the gentlelady from the Virgin 
Islands, Ms. Christensen, for any questions she may have.
    Mrs. Christensen. Thank you, Mr. Chairman.
    I would like to start with Mr. Kilcoyne. I would like to 
know how is this program a risk-based approach to homeland 
security? What ICE's enforcement priorities and where does 
287(g) fall in that list?
    For example, if you had the choice, would you rather see 
money go to CIP enforcement or to training for this program?
    Mr. Kilcoyne. Well, the cost and the money to establish the 
training program for this is going to be expensive, obviously, 
if the 20 or 30 jails, large facilities, around the nation come 
online with this. That is why we have been trying to manage it 
in a manner that is responsible with the resources and monies 
that we do have.
    Certainly, training is very, very important, so we address 
any of the concerns that either the state legislators may have 
or the advocacy groups may have so that we are focusing it on 
criminal aliens and just not people who are here that are not 
in that criminal alien category.
    Mrs. Christensen. But I heard you say that before in a 
response to another question as well. Is it that clear in your 
training--and I guess the state police representatives could 
also answer--that what they are assisting ICE with is in 
criminal and not just the other, as was referred to, maybe the 
gardener or the people who are working here?
    Because some of the stories that have been related to us do 
not suggest that this is being utilized just in going after 
criminal issues with regard to illegal immigrants, but it is 
kind of taking a broad brush to all illegal immigrants and in 
some cases profiling those that are not illegal.
    Mr. Kilcoyne. Well, I can assure you that the training that 
we provide and the supervision that we provide to the troopers 
or to the agents with the FDLE do not vary from what our 
mission is. And the mission is focused on criminal 
organizations, those individuals who pose a threat to the 
border security or systems within the United States, whether it 
is the transportation system or the financial system or 
whatever system it may be.
    Now, one of the key components of the training is that 
they, and the Major mentioned this, that once an encounter 
occurs or a stop is affected, that it is for the reasons, 
whether it is a Terry stop or state probable cause stop for 
whatever, weaving within the lanes, bald tires, whatever it may 
be that gets those individuals stopped.
    And the focus of our training and the way we want this 
applied is that it is another tool to be able to identify those 
individuals so that we are not releasing someone who should not 
be released back into the community.
    Mrs. Christensen. Before my time is up, let me ask Major 
Andrews, Mr. Dubina, this is taking local and state officers 
away from their regular duties, and do not you find that it has 
an adverse impact on doing what your primary mission is?
    Major Andrews. In Alabama, the program is set up where this 
is an additional duty assignment for the officers. The officers 
still focus on their primary mission and their primary duties. 
We provided them this training in case they encounter an 
individual, whether he has violated some section of the Alabama 
code or he has attempted to come to one of our driver's license 
issuance offices to obtain a driver's license or a non-drive 
identification card.
    As they are performing their normal duties and they 
encounter these individuals, in the past, we did not have a 
resource by which to deal with them. I, myself, have made 
traffic stops in which I encounter individuals, sometimes they 
are van-loads. All I had was a traffic violation, but I did not 
have the resources to further investigate the incident.
    With the 287(g) Program, those resources have been 
provided. We have access to the Law Enforcement Support Center.
    There was a stop that was made in Tuscaloosa County in 
which there were 16 individuals in a van. Prior to the 287(g) 
Program, we probably would have written an individual traffic 
citation and sent them on their way. However, because of the 
287(g) Program, one of our ICE-trained troopers was contacted 
and responded.
    As a result of that, two of the individuals, the driver and 
one other individual, ended up being charged with felony cases 
and being deported. The other 14 individuals were processed and 
interviewed, fingerprinted by the ICE troopers. And when the 
ICE agents arrived there on the scene, basically all of the 
paperwork necessary to process these individuals had been done. 
So it expedited our ability to address that issue.
    Mr. Dubina. And if I could follow up, the officers that are 
trained in Florida, this is their primary duty, the 
investigation of domestic security, antiterrorism cases. So 
they are not diverted in any way by this program. It is nothing 
more than a benefit to them, an additional tool in their law 
enforcement tool belt to help them find people, understand what 
they are doing, and if they are doing something illegal, that 
is another tool for us to impact them or their organizations.
    So as a direct answer to your question, ma'am, this is not 
any drain on our resources. These people are designated to do 
this type of work.
    Mr. Rogers. The gentlelady yields back.
    The chair now recognizes the gentleman from Georgia, Mr. 
Linder, for any questions he may have.
    Mr. Linder. Thank you, Mr. Chairman.
    Major Andrews, have you taken this course?
    Major Andrews. No, sir, I have not taken the 5-week course. 
However, when we first entered into the agreement with this 
program, we provided 4 hours of training to all of our 
troopers, our communications personnel and our driver's license 
examiners in what to look for if an individual presented you 
with a fraudulent document, what the documents were that proved 
that you were legally here in the country.
    And also one of the most important resources we learned 
about was the Law Enforcement Support Center. And prior to 
this, myself nor any other troopers that worked for me had 
knowledge of this Law Enforcement Support Center.
    In the past, we had run individuals through the National 
Crime Information Center. That would tell us if there were any 
domestic wants or warrants on them. However, once we learned 
about the Law Enforcement Support Center, we started running 
individuals through there too, and that is where we learned as 
to whether or not they were wanted for immigration violations 
or absconders or what have you. And at that point, if we had a 
state law violation or we discovered this, we would contact the 
ICE about these individuals. So it has been an eye-opening 
experience for our agency.
    Mr. Linder. And that 4-hour course you gave them, did those 
troopers then go on to this other basic class?
    Major Andrews. The 21 that were selected for the basic 
class did attend the 4-hour course also; yes, sir.
    Mr. Linder. Did they learn a whole lot more in the basic 
class then they do in the 4-hour course?
    Major Andrews. Yes, sir, most definitely. The 4-hour case 
is more to give them an overview of what they may encounter and 
how they should react to it. And once they encounter some of 
these situations, it may well be well beyond the training that 
they are capable of.
    And as I said earlier, because there was a lack of ICE 
agents in Alabama at the time, we did not have a means by which 
how to prioritize these as to whether or not we needed to 
contact ICE or hold them or what else to do, in some instances, 
being practical to stop a van-load of people and hold them for 
24 or 48 hours while you are waiting for a response from an ICE 
agent.
    Gratefully, all those circumstances have improved now, but 
prior to that, basically, if you stopped and you issued them a 
traffic citation, he left, he never responded to his traffic 
citation and that was the end of it.
    Mr. Linder. Mr. Dubina, do your troopers all take this 
course?
    Mr. Dubina. I have not personally taken the course.
    Mr. Linder. Have your troopers all taken it?
    Mr. Dubina. We do not have any Florida Highway Patrol 
troopers participating in the program. A number of our Florida 
Department of Law Enforcement officers or agents, along with 
some sheriffs deputies, some other state law enforcement 
officers from the Department of Transportation and some city 
police officers have taken the course, sir.
    Mr. Linder. What percentage of the agents that are 
dedicated to this mission have taken the course?
    Mr. Dubina. Well, in my squad, in Tampa, which I could 
speak most accurately of, all of the FDLE agents assigned to my 
squad have taken the course.
    Mr. Linder. Was it worth their time?
    Mr. Dubina. My personal opinion, it was well worth their 
time. And, again, for the reasons I have stated before, they 
are now much better able to assess what type of person they are 
dealing with and whether this person is actually a threat to 
the community or not on a domestic security level.
    There is a lot of training that really gives these officers 
an insight into the immigration system and why people get here 
and why they should or should not be here. And I really feel 
that that background for these officers is invaluable when they 
run across these people and have to question them.
    We have got one shot at these people most of the time. 
Major Andrews commented right on point, if you run into one of 
these people and you do not know what you are doing and you 
have to let them go, that may have been your only shot to 
impact their activity in this country.
    Mr. Linder. Could you locally handle this course?
    Mr. Dubina. Well, I think the challenge would be finding 
appropriate instructors to teach the course. I do not think it 
is so much a function of a government agency as it is assuring 
that the course is properly trained.
    Obviously, in law enforcement, in general, we have people 
that come in and teach us curriculum that is required by state 
statute to maintain your certification, and those people are 
not employed by the Department of Law Enforcement or another 
county or state entity. And if they are, usually they are 
teaching on their own time, they are not teaching as part of 
their full-time duties.
    Mr. Linder. Well, it just strikes me, if we use this course 
to train trainers, we could get a lot further across the 
country in training troopers. Would you agree with that?
    Mr. Dubina. Well, again, I think it goes to the point of 
the selection of who uses a trainer. It is very complicated 
material, so you would have to be very discrete or your 
selection process would have to be pretty thorough in the types 
of people you train to do that. Obviously, I think the people 
who do well in this program are the people that are interested 
in the program and want to excel in it. And so given that 
environment, I think that is a possibility that you could look 
into.
    Mr. Linder. Thank you.
    Thank you, Mr. Chairman.
    Mr. Rogers. The gentleman yields back.
    The chair now recognizes the gentleman from Texas, Mr. 
McCaul, for any questions he may have.
    Mr. McCaul. Thank you, Mr. Chairman.
    I was proud to support you in the amendment to provide $40 
million for this training. I think in the post-9/11 world 
having federal, state and locals working together is a good 
idea. I think in my experience in law enforcement, state and 
locals are often deputized, they participate in joint terrorism 
task forces, and I view this issue of immigration as one of 
national security. It impacts my home state of Texas on a daily 
basis.
    I have two impediments, though, that I want to raise with 
the panel to get your comments. Of course, my district I have 
Austin and Houston, and both of those cities have what is 
called a sanctuary policy, which essentially ties the hands of 
local law enforcement and their ability to even inquire into 
the status of someone they pull over for a traffic violation or 
the like.
    I want to get your comments on that policy, and I also 
wanted to raise the issue of detention space, and perhaps this 
is better for the ICE official. I know that on the border we do 
not have enough detention space to detain those coming in from 
other than Mexico.
    As a federal prosecutor, many of my defendants that were 
detained were not put in a federal facility but rather in a 
state facility. And it is becoming a growing issue, and of 
course as state and locals get into the area of enforcing our 
immigration laws, I think it is going to become even more of an 
issue.
    There is a bill pending to provide greater funding for 
state and locals for incarceration and reimbursements.
    So having said that, I just would appreciate your comments 
on those two main issues.
    Mr. Dubina. Well, if I could comment on your issue about 
the sanctuary cities. In my region, we have several police 
chiefs that are outspokenly against things like the CLEAR Act 
where you are taking routine patrol officers who do not have 
any immigration training and putting them into an environment 
where they are asked to enforce immigration law. And at least 
one of those same police chiefs actively supports our program 
and has actually sent one of his detectives through this 287(g) 
Program. So I think that speaks volumes about the stance of 
local and county law enforcement when you talk about this 
issue.
    We obviously have discussed today it is a very complicated 
body of law, and to put a routine patrol officer in a situation 
of having to deal with it without having any background at all 
with the nuances of the law and obviously the rights these 
individuals are duly afforded, I think is a disservice to the 
officer and also to the immigrant community that they are 
dealing with.
    Mr. McCaul. Which is why we provided the funding for this 
training. But then again, we are stuck with local policies as 
not being able to inquire as to the status.
    Mr. Dubina. Back on point--if I strayed off, I apologize--
again, we have police chiefs that in general do not support 
their officers dealing with immigration matters but have 
embraced this 287(g) Program because it is focused and because 
the training is thorough, and there is a specific mission 
there.
    Major Andrews. In Alabama, we do not have any cities that I 
am aware of that have a designation of sanctuaries. Even if we 
did, I do not think that there would be a lot of impact as far 
as the way that we carry out the 287(g) Program, because there 
is always some violation of the state code, especially when we 
are dealing with traffic enforcement. You are going to have 
individuals out there that are going to speed, they are going 
to run traffic lights, they are going to run stop signs, and we 
are going to encounter them. And many of these individuals will 
have engaged in some form of criminal behavior.
    And in a lot of instances when you are dealing with--if 
your officers have some background in what to look for, the 
document that they offer to them, be a driver's license, be an 
identification card, be it a resident alien card, that officer 
can look at it and determine as to whether or not he needs to 
take any further action because he has been issued a fraudulent 
document, which is a violation of the law in Alabama within 
itself.
    So from that standpoint, I do not believe that we have a 
handicap in implementing a 287(g) Program.
    Mr. McCaul. That is a good point.
    Mr. Kilcoyne, do you have a comment on the detention space 
issue?
    Mr. Kilcoyne. Yes. Actually, on the detention space, that 
is actually another entity within ICE other than the Office of 
Investigations, but I am very well aware of the fact that bed 
space, detention space is a large issue in this and has an 
impact on the overall program.
    If we respond to a trooper who has stopped a van-load in 
the state of Alabama and we process everyone, we identify 
everyone and there is no bed space, chances are they may end up 
going down the highway with a notice to appear at a later date.
    So that is why we are trying to manage this program 
correctly. And I believe, and I would like to emphasize again, 
we believe that the best way to manage this program in the 
future until adequate resources and funding for beds to address 
the problem is through the application in the jails or the 
prisons so that you can control when that individual is going 
to be released for those particular charges that got him 
stopped in the first place, whether it is drunk driving or 
burglary or whatever he may be there for.
    So I think that is the most prudent way to manage this 
program and continue on with what we are doing in Alabama and 
in Florida.
    The issue that you raised as to how are we dealing with the 
sanctuary cities and the input there, that was an issue in Los 
Angeles when we were recently discussing the MOU with Los 
Angeles County. And this is one of the reasons that in the law 
that you deal with the governing body over the police 
departments so that there is a checks and balance there.
    What we ended up with in Los Angeles was the fact that we 
would deal with and process those individuals that were 
convicted in state or municipal court there in Los Angeles and 
were going to go serve a sentence for whatever crime they may 
be serving. So that would be your pool of individuals to 
process would be those convicted people.
    I think that I have talked to, and the program managers 
have talked to, a variety of departments and entities around 
the United States and that is an issue why we have not expanded 
this program in a lot of places because there are conditions. I 
believe one of the other panel members on the second panel will 
address some of those issues.
    But I think, again, going back to a smart application of 
this and making modifications to the MOU or the deployment of 
the program to fit the needs of the specific requester, such as 
with Los Angeles County, and that is just another tool as you 
have heard, in their toolbox to hold an individual, to make 
sure that criminal is not released back into the community. And 
the county or the state does not have to incur the supervision 
costs for probation and parole.
    So I mean, that is why this is kind of as a new agency and 
really a new managed program, this is kind of a work in 
progress as we proceed down the road.
    Mr. McCaul. Well, thank you, and I see my time has expired.
    Thank you, Mr. Chairman.
    Mr. Rogers. The gentleman yields back.
    The chair now recognizes the gentleman from Washington, Mr. 
Reichert, for any questions he may have.
    Mr. Reichert. Thank you, Mr. Chairman.
    Welcome, and thank you for your service. I was in law 
enforcement for 33 years and up until January of this year I 
was the sheriff in Seattle. So I know some of the issues that 
you are talking about.
    About a year or two ago, one of our state troopers stopped 
someone for speeding, on a freeway in Ken County, Seattle area. 
He wrote the ticket and allowed the person to drive away, and 2 
months later they discovered that he had Al Qaida connections.
    My first question is, weren't your agencies already 
involving in dealing with and countering illegal immigrants 
prior to September 11 and even after September 11 without this 
training.
    Major Andrews. Yes, sir. As I said earlier, in Alabama, we 
did encounter them. The difference now is that we have the tool 
by which we can run records checks through NCIC and also 
through the Law Enforcement Support Center to help us identify 
who these individuals are.
    There are many instances. We spoke previously about our 
one-time with the individual. We may arrest him, he may have to 
be released, but then he never shows back up again.
    Under the program, as it exists now in Alabama, if we stop 
that individual and he presents us with some type of document 
that the first officer who encounters him determines it is just 
not something right about this document, he needs to check 
further. We have the resources to do it now.
    His first step is to try and run this individual through 
the Law Enforcement Support Center. The second step is to 
contact one of these ICE-trained troopers. We can get that 
individual in and further investigate as to whether or not this 
person has a legal right to be here or if there are any other 
inquiries.
    Mr. Reichert. Did it take you less time before the training 
than it does now or does--from your normal daily activities 
that you encounter these people before the training and that 
you still do today? Did it take you less time then to handle 
the problem or less time today after the training?
    Major Andrews. It took us less time before we had the 
training, because we would probably just have written a ticket 
and let the individual go.
    Mr. Reichert. And let the individual go. How much more 
time, do you think, are you losing a lot of time away from your 
daily duties? And the other question I want to add on to that 
is what other duties actually that are non-law enforcement 
related, maybe for both of you, that you pulled away from every 
day that you can give examples of. Immigration may be one of 
those but not your primary duty. But what other duties?
    Major Andrews. Well, in Alabama, all of our troopers take 
on additional duties being members of the traffic homicide 
investigation squad, the tactical operation units, which are 
SWAT teams, emergency response units for disasters and natural 
manmade--
    Mr. Reichert. What about medical emergencies? You have to 
respond to those every now and then. They really are not a part 
of your--
    Major Andrews. They are not, but they are a part of public 
service.
    Mr. Reichert. Mental illness calls--
    Major Andrews. Yes, sir.
    Mr. Reichert. --those kinds of calls. Those are things that 
cops do every day in the course of their daily duties, and they 
hand those duties off to someone else professional in that 
field; is that right? This is part of your job.
    Major Andrews. Yes, sir. This is part of our job, and in a 
lot of instances, irregardless of what happens, we are going to 
be the first person there on the scene, and the officer has to 
use discretion as to how much further, how much involvement he 
needs to have into this before he hands it off to someone else.
    Mr. Reichert. Homelessness another example.
    Major Andrews. Yes.
    Mr. Reichert. Real quick, I think for all advocates of 
training, and I can see just by looking at the training record 
here some of the training you go through in this program--civil 
rights training, human rights training, victim witness 
training, use of force training.
    I mean, this is additional training that helps benefit not 
only the police departments across the country and sheriffs' 
offices across the country in addressing this problem were 
talking about today, but in every aspect of your job.
    And isn't it true that the more training you get, the less 
complaints you get?
    Mr. Dubina. I think that is absolutely true, and I think 
there have been studies that bear that out. Again, I will go 
back to what I said before: I think in many cases it is 
benefited the immigrant who is being questioned, because the 
officer has a higher level of training. He understands what he 
is trying to get out of this person, he understands what the 
person's status is. He understands very quickly is this person 
a problem from a immigration standpoint or is he not? The 
average patrol officer, which I have been also, does not have 
that level of understanding or training.
    Mr. Reichert. Mr. Chairman, if I could just ask one real 
quick question. I know my time is expired. Along with the 
training thought, I am going to assume that both of your 
agencies have an investigative arm that investigates 
complaints. Each of your agencies has an internal 
investigations unit, and they would investigate any complaint 
on any traffic--any complaint that came into your agency; isn't 
that true?
    Major Andrews. Yes, sir, that is true. We have a Standards 
and Integrity Unit that is specifically set up to handle any 
type of complaint that comes in, whether it be a profiling 
complaint, whether it be that, ``The officer was not courteous 
to me that day.''
    Mr. Reichert. It is a civil rights complaint. Isn't it true 
that you work with the FBI and the U.S. Attorneys Office on 
those complaints?
    Major Andrews. That is correct, sir.
    Mr. Reichert. Okay.
    Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman for yielding back.
    The chair would like to ask a few more questions, have 
another round if other members want to ask questions as well.
    Mr. Kilcoyne, did I understand you correctly that the money 
being spent by ICE is being spent to hire more agents for this 
training currently?
    Mr. Kilcoyne. No. I believe that there would be--we have a 
limited training staff. That staff, since there is going to be 
more agents hired, would be teaching those individuals to get 
those folks out into the field. However, we are looking at a 
variety of options working with our Training Division and 
exploring the possibility of using contract trainers, retired 
people who have left, who have the expertise and the knowledge 
for these very sensitive topics, to be able to teach.
    Mr. Rogers. But is this correct that to date all the costs 
that ICE has associated with the 287(g) Program has been coming 
out of ICE headquarter funding, FLETC funding, Academy funding, 
and there has been no specific line item for salaries. Is that 
a correct statement?
    Mr. Kilcoyne. Correct, for the 287(g) Program, yes.
    Mr. Rogers. I want to go back to where we left off on the 
questioning in my first round, but before I do that I would 
like to ask the ranking member and other members of the 
committee, I have made reference to ICE's submission of some 
cost estimates for training that we have had submitted today, 
and without objection, I would like to have these submitted to 
the record for us to consider them further. Without objection, 
they are admitted.
    And I do not want to spend any more time on those cost 
estimates. I want some time to kind of ponder those and make 
sure I understand them better before I criticize them, if I 
criticize them.
    I do want to ask one point of clarification. The cost 
difference between basic class and advanced class I know $900 
for tuition for the advanced class. Is there no tuition for the 
basic class? You see what I am talking about? Down under 
advanced class, on the third line, it says, ``$161,000 plus 
$900 tuition, estimated.'' There is no reference to tuition 
above that in the basic class.
    Mr. Kilcoyne. The difference there would be for the $900 
tuition is if we held the training at the FLETC Academy as 
opposed to delivering it in the field. We were able, for 
example, in Alabama be able to bring the cost down quite a bit 
by using the Homeland Security facility in Anniston.
    Mr. Rogers. Okay. Thank you.
    Mr. Kilcoyne. That, I believe, answers that.
    Mr. Rogers. Excellent. Thank you.
    I want to go back now, though, to where we left off earlier 
talking about this 287(g) being applied in the custodial 
setting. You, gentlemen, heard Mr. Kilcoyne's reference to that 
being the policy or the planned policy going forward. Has that 
been the application that you have been utilizing primarily in 
your state?
    And I will start with you, Major Andrews?
    Major Andrews. No, sir. Our application takes place at the 
time that we encounter the individuals.
    Mr. Rogers. And do you agree with that proposed policy 
change or do you think it would be of higher and best use 
applied as you have currently been using it?
    Major Andrews. I believe that you are going to have to look 
at the circumstances in the different jurisdictions. I believe 
in Alabama, in our particular situation, the way that we apply 
it is a better solution.
    Mr. Rogers. Okay. Mr. Dubina?
    Mr. Dubina. Yes. Well, I think it was stated in the record 
that Miami-Dade is anticipating being part of that program. I 
do not know about it. We do not at the Florida Department of 
Law Enforcement involve ourselves in corrections. So it is not 
part of our program.
    To make a value judgment on which is better, I would rather 
just say that we strongly support our involvement in the 
program and we would like it to continue and would ask you to 
do anything you could to make arrangements for that to occur.
    Mr. Rogers. Good. Well, all the evidence seems to be that 
it is working well now as it is being utilized in your two 
states, and I hate to see that limiting direction being taken.
    I do want to go back to a point that was left off with the 
ranking member in his questioning on this backfill point. I 
know that currently you have not been able to get backfill pay 
for your officers when they are replaced while they are gone 
for training. In this authorizing legislation in the upcoming 
appropriation, you will.
    Do you think that is going to enhance the likelihood that 
your agencies and other agencies within your state will be 
likely to participate?
    I would, again, start with Mr. Andrews.
    Major Andrews. Yes, sir. When we sent those 21 officers to 
be trained, someone had to do their duties while they were 
there, so we encountered some instances of overtime and issues 
of that. But the Department took the position that it was a 
valuable program and resources were not available to cover our 
costs, so we ate the costs at that time.
    Should we be able to continue to do that in the future, I 
do not have an answer to that question, but it would definitely 
be a positive note for funding to be provided for backfill.
    Mr. Rogers. Well, I would make the point, having been here, 
being a former state legislator in Alabama and still a resident 
there, I know about the gross shortages of state troopers that 
we have in our state, and it is commendable that the leadership 
of the Alabama Department of Public Safety saw this as being 
important and was willing to do it out of their hide. But you 
are to be commended for that.
    My time has expired.
    With that, I will yield to the ranking member of the 
subcommittee for any additional questions he may have.
    Mr. Meek. Thank you, Mr. Chairman.
    Mr. Kilcoyne, I know that you were in the process of 
answering a question, and that question I am trying to remember 
at this particular time, but I am pretty sure that we will get 
around to it. It seems like you have gotten your share of 
questions today.
    Mr. Chairman, I want to also enter another graph here for 
the record, the total national funding for the State Criminal 
Alien Assistance Program, to show the decline in funding from 
2001, some $565 million down to $300 million right now total 
appropriated funds.
[GRAPHIC] [TIFF OMITTED] T8332.001

    Mr. Rogers. Without objection.
    Mr. Meek. Thank you so very much, Mr. Chairman.
    Also, some of the efforts--and, Major Andrews, I know that 
my good friend, the sheriff here, now congressman, shared some 
practical questions with you as it relates to the overall 
duties of a law man, law woman out there on the road. But you 
do have some counties that are covered by troopers. You may 
have a trooper covering two or three counties. Is that an 
accurate statement?
    Major Andrews. Yes, sir. We do have situations because of 
the number of us that we do have troopers sometimes they are 
the only trooper working that county or he may be on call for 
two or three countries, as you just said.
    Mr. Meek. Yes, sir. One of the major concerns that I have 
with this issue is, a, I know that we are working toward the 
funding issue, but it is almost like we have--in my opening 
statement, I talk about the 9/11 bill that we passed, I mean, a 
bipartisan bill that every member of Congress voted for just 
about. And the funding and the resources that are supposed to 
go to ICE, better yet the administration is not putting forth 
the money to pay for ICE officers, this program is not in the 
president's budget. The program that I just mentioned, the 
State Criminal Alien Assistance Program, is not in the 
president's budget for funding. And so I am wondering where we 
are going with this.
    Special Agent, you shared with us that you are a team of 
agents, and I know exactly what the Florida Department of Law 
Enforcement does, and they are an investigative agency, not an 
everyday kind of law enforcement kind of thing. So I am 
assuming that your agents are focused on possible targets, 
possible individuals of interest. And being able to identify 
them when you may have something is important. You may not be 
able to call the ICE officers in the Bay Area to be able to 
come and say, ``What do you think'' kind of thing because they 
are probably stretched thin, as we know they are underfunded at 
this time.
    I think what is also important, and, Mr. Kilcoyne, it is 
kind of hard for me to ask you these questions, sir, because 
you are the deputy assistant director and you are doing--some 
of the stuff you are doing what you are told and especially 
what Congress has told you to do as it relates to your 
investigation. But I think what is important here to understand 
that if it comes down to ICE discretionary decision on what 
they are going to do and what they are not going to do, it is 
going to be hiring more ICE officers, even for the money that 
is in appropriations bill now. That is for 25 new ICE officers 
that can be fully trained and that can be out doing what they 
do.
    Now, I also pulled out a report a little earlier from the 
International Association of Chiefs of Police. This is not the 
Kendrick Meek report. These are law men and law women who are 
administrators that understand what is going on. They have some 
concerns.
    And I must say, as it relates to the steering committees, 
and that is why I am very interested in that, and I think, Mr. 
Kilcoyne, that is what you were in the process of answering 
some of the priorities of that committee, it goes along as it 
relates to infusion, as it relates to the training of 
immigration laws. And it goes on to talk about limitations on 
arrests without warrants, liability concerns, some of these 
issues that are out there. I do not know if there are being 
addressed by these steering committees in Alabama or in 
Florida.
    And I guess the second part of that question, Mr. Kilcoyne, 
and anyone on the panel can get into it, who is on these 
steering committees? Just folks that carry badges or do we have 
individuals like prosecutors, do we have public defenders, do 
we have individuals--what kind of steering committee is this, 
because the numbers that have been trained thus far, as it 
relates to the DLE or the Alabama Department of Public Safety, 
I mean, the numbers are still very, very small.
    So for us to say we have a project and it is doing great, I 
mean, we are talking about less than, I would assume, 1 percent 
or 1.5 percent or even less than that of state law enforcement 
or even local law enforcement personnel. So for us to get a 
real snapshot, I think it is important with this early program 
that we have now to be able to tailor it in a way that it can 
be around for years to come, the integrity of the program, also 
the funding. So I just want to make sure that we are doing the 
right thing here.
    I have made pretty much a statement here. The Congress has 
already spoken on it. The chairman, author of the legislation, 
and now here we are some 9 years later, or 10, who is counting, 
of a program where we only have two states and one local 
jurisdiction involved in it. You mentioned something about 
corrections and it went into further local jurisdictions as it 
relates to working with ICE and detecting individuals that come 
in that are here illegally or on some sort of watch list.
    Who is on these coordinating committees? Could you answer 
that question? steering committees.
    Mr. Kilcoyne. The steering committees are comprised of the 
local managers for the ICE Special Agent in Charge office in 
that particular area, whether it is in Tampa or Miami or in 
Alabama. The individuals that have input in addition to the 
local level would be the counsel for ICE or counsel for the 
Department of Public Safety or for the Department of Law 
Enforcement, someone at my level, someone at the Special Agent 
in Charge level, the program manager level from headquarters to 
make sure that the program, as it is being employed in that 
particular area, is consistent with the charter, if you will, 
of the MOU and the focus of the agencies and that we are not 
out there doing roundups or just general immigration work.
    Mr. Meek. Do you have--I am sorry, Mr. Chairman, I just 
wanted to have some latitude here--do you have statistical data 
as it relates to strategic or counterterrorism arrests that 
have come out of this program? Do you have any data that would 
support the success of the program?
    Mr. Dubina. The original MOU with INS, legacy INS, called 
for them to maintain the data on people arrested. I can tell 
you that in my region we have arrested or detained over 100 
people, pursuant to the designation. But I cannot go beyond--at 
this moment, I do not have the stats with me to talk about what 
they are statewide.
    Mr. Meek. One of the things that I will definitely have an 
issue as it relates to the longevity, that data is going to be 
important now, especially if the Senate agrees to this $5 
million appropriation. I mean, that information is going to be 
important.
    And so these steering committees and the integrity of these 
steering committees, not saying that it is not there, I am just 
saying that making sure that the full input is there because it 
takes one or two incidents and then folks say, ``Well, you 
know, I do not know about the funding for that program.''
    And individuals of Congress and some folks here on this 
committee, we are the Homeland Security Committee, we are the 
cheerleaders for homeland security if anybody in this Congress. 
I mean, I do not want you to look up here and see us a 
cheerleaders, but I am just sharing with you, that is what we 
do. On Armed Services, I serve on that committee too. We are 
the committee to go fight for the men and women in uniform 
beyond any other committee.
    I am saying that to say that I see some issues here, some 
other members on the committee see some issues, and we need to 
resolve those issues if we want to move forward in being able 
to have this program. And we have to have meaningful numbers of 
how this actually works.
    The Florida Department of Law Enforcement, I am going to 
tell you right now, this is low-hanging fruit for you all, 
because you investigate. You are part of a task force. But when 
you start getting into local law enforcement, you start getting 
into state troopers, which I used to be and have great respect 
for state troopers, the real issue, it comes down to their 
everyday responsibilities and what they do.
    You take a trooper off the road involved in an INS 
investigation, we are talking 2 weeks in some instances if you 
are in court because an individual may very well be deported.
    So I am looking at that, I am looking at the money that is 
being given, and if we start paying overtime, time and a half 
for a trooper to be in court, it may not necessarily mean 
anything in investigations because it is just a part of the 
investigation, that is the culture of the investigation. It is 
court time. That is when we start--and I understand the reason 
that the chair and some police chiefs have as it relates to 
those individuals.
    So I am looking forward to staying more in tune. I would 
love, Director Kilcoyne, if any statistical data the MOU calls 
for, from what I understand, what I was told, any statistical 
data as it relates to the kind of individual that we have been 
able to arrest, and I will not even go into the thing of 
detain, because folks are detained at the--I am detained at the 
airport for 5 or 6 minutes on any given month. So that is not 
detained.
    I want to know who did we get, who did we catch, and where 
are they now?
    And where are they now, Mr. Chairman, I think, is the 
underlying question here, because they are sitting down at a 
local jail waiting on deportation. That is an unfunded mandate 
to local government.
    So I did more of a statement, Mr. Chairman, than a 
question, but I just wanted to get that on the record so that 
we can tighten up what we are doing right now.
    Mr. Rogers. The gentleman yields back.
    The chair would now recognize Mr. Reichert for any 
additional questions he may have. No?
    The chair would now recognize the ranking member of the 
full committee, Mr. Thompson, for any additional questions he 
may have.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Mr. Kilcoyne, are you aware of the quarterly review that 
the MOUs call for?
    Mr. Kilcoyne. Yes.
    Mr. Thompson. Are they being done?
    Mr. Kilcoyne. I believe they are being done at the local 
level and then sent to the program manager here at headquarters 
that is on my staff.
    Mr. Thompson. Can you provide this committee with the 
quarterly reviews for each MOU from the inception of the MOU to 
present?
    Mr. Kilcoyne. Yes, I believe we could get you that, as well 
as the results and arrests and the statistics as part of a 
package.
    Mr. Thompson. I want to further that information from our 
ranking member's position. I think it is important for us to 
see what benefit that we have derived from training the 
troopers in Alabama statistically, and I think you have to 
break it out in terms of not just detained but obviously if 
there was a conviction or a deportation or something like that.
    For my own information, how many ICE agents do we have in 
Alabama now?
    Mr. Kilcoyne. The exact number I do not have right in front 
of me, I can get you that. But I know that the offices that we 
had previously in that state were augmented by obviously the 
INS people as far as the Customs and INS joining together. But 
the actual numbers and breakdown, I can get you that exactly.
    Mr. Thompson. Major Andrews talked about that there were 
three in his testimony before the troopers went to training.
    Major, do you know how many ICE agents are there now?
    Major Andrews. At the current time, I believe that there 
are four. However, you have to take into consideration that 
when Immigration and Customs Enforcement all were consolidated 
up under the Department of Homeland Security, there was some 
additional individuals that were brought in. I do not know the 
exact number of agents now.
    I do know that in major cities, our ICE-trained troopers 
have an INS supervisory agent to respond to, and there are four 
of those.
    Mr. Thompson. Okay.
    Mr. Kilcoyne, an ICE agent, how long would a full-time 
employed ICE agent have to be trained?
    Mr. Kilcoyne. To start the Academy and to finish the 
Academy?
    Mr. Thompson. That is correct.
    Mr. Kilcoyne. I believe that the training is about 5 
months.
    Mr. Thompson. And the training for the program here is 5 
weeks?
    Mr. Kilcoyne. Yes. The training for the application, both 
in Florida and in Alabama, was about 176, just a little shy of 
180 hours of training.
    Mr. Thompson. Are the qualifications for ICE agents the 
same as qualifications for Florida Department of Law 
Enforcement officials and Alabama Department of Public Safety 
individuals?
    Mr. Kilcoyne. When you say the qualifications, are you 
talking about the job entry qualifications or are you talking 
about the qualifications to be certified to pass the test to 
complete the training?
    Mr. Thompson. Well, you know, we have people who are 
performing job responsibilities who are not ICE agents, and we 
have certified them. And I am trying to see whether or not ICE 
requires a certification of people you send through the 
training.
    Mr. Kilcoyne. Well, the candidates that the departments 
send in, they have to pass all of the courses that are 
presented to them.
    As far as what the requirements to get them hired by their 
own agency is, may be the same, may be different. I do not know 
exactly what those are.
    Mr. Thompson. So you are saying as long as those 
individuals are sworn law enforcement officers, ICE is 
satisfied?
    Mr. Kilcoyne. There is a vetting process for those 
individuals to be submitted to us to make sure that they do not 
have any prior discipline problems or any other issues for them 
to come into this program.
    Mr. Thompson. Can you provide this committee with the 
standards that ICE require from a vetting standpoint for those 
people who enter into the program?
    Mr. Kilcoyne. Yes, we can.
    Mr. Thompson. They are in writing?
    Mr. Kilcoyne. No, they are not; however, I can give you the 
framework of what the expectation is based on the conversations 
that we have with the two departments.
    Mr. Thompson. So we take people into a program without any 
written standards for vetting.
    Mr. Kilcoyne. Well, the standards are the standards 
established by the agency and the agency submitting 
individuals, as they have mentioned earlier, that want to be in 
this program and have met the rigorous standards to get them 
employed and retained by their home agency.
    Mr. Thompson. I understand that, but this is a program 
sponsored by ICE, supported by the taxpayers, and we have not 
set a standard for vetting the people that is, in my mind, 
objective because it is not written. But, nonetheless, I 
appreciate your truthfulness.
    I yield back, Mr. Chairman.
    Mr. Kilcoyne. If I could continue, in the MOUs, there is 
specific language that reads, ``The director of the department, 
for example, in Alabama, that the director of the DPS will 
nominate to ICE candidates for the initial training and 
certification under this MOU. Each candidate nominated ICE may 
request any information necessary for a background check and 
evaluation for suitability to participate in the initiative.
    All candidates must be U.S. citizens. All candidates must 
have at least 3 years experience as a sworn law enforcement 
officer. All candidates must be approved by ICE and must be 
able to qualify for appropriate federal security clearances. 
Should a candidate not be approved, a substitute candidate may 
be submitted. So long as such substitutions happened in a 
timely manner and does not delay the start of the training.
    Any future expansion in the number of participating 
troopers or scheduling of additional training classes may be 
based on an oral agreement of the parties but will be subject 
to all of the requirements of the MOU.
    So the standards are set in the MOU, but as far as the 
written--
    Mr. Thompson. I understand.
    Mr. Kilcoyne. Okay.
    Mr. Thompson. So your testimony now is that nobody has gone 
through the training provided by ICE that ICE has not done on 
the background checks on.
    Mr. Kilcoyne. If the information is supported. I believe 
the way it is written in here is that must be approved by ICE 
and must be able to qualify for the appropriate federal 
security clearances.
    So far, we have not had anyone who we have had to dig 
deeper on based on the information and the recommendation from 
the departments.
    Mr. Thompson. Mr. Chairman, I am just a little concerned 
that ICE is probably, and could be rightfully so, relying on 
the people who are submitted, but they are nonetheless not 
doing their due diligence to make sure that the people who come 
through the program meet the standards for ICE. And from what I 
gather, as long as the people are sent from an area, that is as 
far as it goes unless you can tell me otherwise.
    Mr. Kilcoyne. I mean, we are relying heavily on the fact 
that they are a sworn law enforcement officer for the state of 
Florida or the state of Alabama.
    Mr. Thompson. But you also are aware that there are 
standards that federal law enforcement people have that are 
different than local law enforcement officers.
    Mr. Kilcoyne. I understand that, sir.
    Mr. Thompson. And that we are training people for a federal 
program.
    Mr. Kilcoyne. I understand that.
    Mr. Thompson. Thank you.
    Mr. Rogers. Gentleman yields back. I thank the gentleman.
    I want to thank the panelists for your time. You have been 
very kind and generous, very helpful for us.
    With that, the witnesses are excused, and I now call up the 
second panel.
    The chair now recognizes Kris Kobach, professor, University 
of Missouri- Kansas City School of Law, for any statement you 
have.
    Mr. Kobach?

                    STATEMENT OF KRIS KOBACH

    Mr. Kobach. Thank you, Mr. Chairman. It is an honor to be 
before you today to talk about what is, I believe, a proven 
mechanism for improving law enforcement, improving the rule of 
law in immigration and improving the security of our homeland, 
namely Section 287(g).
    I was directly involved in overseeing both the Alabama and 
the Florida MOUs from my perspective as Council to Attorney 
General Ashcroft when the Florida MOU was concluded and in the 
initiating stages of the Alabama MOU.
    But I would stress that my testimony should not be taken as 
the official position of the U.S. Department of Justice. I am 
testifying in my personal capacity as a law professor.
    At the outset, it is important to define, I think, the 
precise scope of the authority we are talking about. Many 
observers, especially in the press, have confused Section 
287(g) authority with the inherent arrest authority that all 
state and local police possess with respect to immigration 
violations.
    The inherent authority that local police possess was 
recognized publicly by the Attorney General in June 2002 
following an Office of Legal Counsel opinion coming from the 
Department of Justice.
    In that statement, the Attorney General stated the 
conclusion of the opinion, which was unequivocal, that 
arresting aliens who have violated either criminal provisions 
of the Immigration Nationality Act or civil provisions 
rendering an alien deportable is within the inherent authority 
of the states, and that authority has never been preempted by 
Congress. And it is simply the power to arrest an alien who is 
removable, detain the alien temporarily and transfer him to the 
custody of ICE.
    Every year, the Law Enforcement Support Center, about which 
you have heard several comments already today, received more 
than 300,000 calls from state and local police. The vast 
majority of those calls have nothing to do with 287(g) 
authority, but those calls are exercises of the inherent arrest 
authority.
    In contrast, Section 287(g) confers a much broader spectrum 
of enforcement powers, more than just merely the power to 
arrest and transfer, it is, as we have heard, the power to 
investigate, the power to collect evidence, assemble a case for 
removal or prosecution, the power to take custody of the aliens 
on behalf of the federal government and other powers involved 
in routine law enforcement.
    Appropriately, in 1996, Congress expressly recognized in 
the statute that the creation of 287(g) did not displace the 
inherent arrest authorities that police may exercise from time 
to time.
    Well, the success of the program in Florida I think was 
immediately apparent. In the first year, under the Florida MOU, 
the trained officers specifically made 165 arrests, including 
the bust of a phony document ring in the Naples area. In 
Alabama, since September 2003, the troopers have made nearly 
200 immigration arrests.
    And although there are important similarities between the 
MOUs in Alabama and Florida, I think it is important to 
recognize that the MOUs meet different needs in each of those 
communities, and that is one of the benefits of the 287(g) 
Program is that it can be tailored to meet the important law 
enforcement needs that are different in each jurisdiction.
    One of the important aspects of Florida's MOU, as we have 
heard, is that it was in the wake of 9/11 and it was tailored 
to the exigencies of terrorism. State and local police are 
often in the best position to come into contact with alien 
terrorists operating in the United States.
    Four members of the 9/11 cohort were stopped by state and 
local law enforcement through routine traffic violations. In 
all four of those instances, the alien was illegally present in 
the United States. Also relevant from Florida's perspective was 
the fact that many of the 9/11 cohort had been operating in 
Florida prior to the attacks or they entered the United States 
through Florida. Also relevant was the fact that the 20th 
hijacker, Mohamed Al Khatani, attempted to enter through the 
Orlando Airport, and he was stopped by a vigilant immigration 
inspector.
    In contrast, Alabama faced a different challenge. Alabama 
had experienced, as we have heard, widespread increases in so 
many document production at the DMV and had seen an increase, 
generally, in immigration violations but felt underserved by 
ICE. They used Section 287(g) to address that problem.
    Now, these are not the only needs that Section 287(g) can 
address, and I think it is important to recognize that 287(g) 
has a lot of untapped potential here. Perhaps the greatest law 
enforcement threat today in the United States is the risk of 
violent alien street gangs. A few statistics can illustrate the 
scope of this problem.
    I think most people are aware of Mara Salvatrucha 13 or MS-
13, which is certainly the most notorious alien street gang. It 
started as a Salvadoran street gang in the Los Angeles area. It 
now has more than 10,000 members in 33 states. And it still 
remains smaller than the largest alien street gang, which is 
the 18th Street Gang, also originating in Los Angeles, which 
has more than 20,000 members in Los Angeles alone.
    In both gangs, the majority of members of the gangs are 
illegal aliens. That is important here, because that allows law 
enforcement an additional tool in dealing with the incredible 
violence that these gangs bring to their communities. Wherever 
MS-13 or the 18th Street Gang goes, killings inevitably follow.
    To give you some statistics out of Los Angeles, the various 
gangs accounted for 291 of the city's 515 homicides in 2004, 
and that is an increase of more than 12 percent over the 2003 
numbers.
    Because so many of those gang members are here illegally, 
sustained enforcement of immigration law can have a massive 
impact in dealing with the gang violence. And this was 
demonstrated in March of 2005 when with Operation Community 
Shield, ICE arrested 103 MS-13 gang members in an operation 
that lasted several weeks.
    Now, the way it worked is local law enforcement provided 
ICE with lists of known gang members' names. Those names were 
then run against the ICE databases. ICE basically found every 
match where an individual was here illegally and was also a 
member of the gang, as ascertained by the local law 
enforcement. ICE then moved in with the help of local law 
enforcement and made the arrests, and in one fell swoop 103 MS-
13 members, including one of the most notorious leaders 
nationally, were arrested.
    That is a powerful example of how immigration enforcement 
can be used as a tool in dealing with these street gangs.
    Well, Operational Community Shield was a successful 
episode, but it is limitation is precisely that--it was an 
episode. These law enforcement officers in jurisdictions that 
have gang problems are coming into contact with gang members 
every day, and in many cases, officers have told me they have 
seen gang members who are known deportees. They know the person 
has been deported previously or they have very good information 
that the individual is here illegally.
    Well, they can, if they had Section 287(g) authority, they 
could be routinely and regularly and constantly exercising this 
immigration enforcement power to take off the street those gang 
members who are confirmed illegal aliens, doing the checking 
into the databases themselves instead of having an episodic 
approach, as we have seen with Operation Community Shield.
    We heard on the first panel about the possibility of 
limiting 287(g) to prisons. I think this would be a bad idea to 
limit--it is certainly a good idea in prisons, but to limit it 
to that context would be unfortunate. It would miss the 
opportunity to defeat these alien street gangs, it would miss 
the opportunity to solve problems like we saw in Alabama prior 
to the 287(g) MOU. And I believe it would be contrary to the 
express will of Congress.
    In my capacity as Counsel to the Attorney General, I looked 
at a great deal at the statutory context of Section 287(g) or 
8(USC) 1357, and it is clear that the intent of that statutory 
text is not limited to prisons. Indeed, one might argue that 
the prison context is an extrapolation off the main intent, 
which is primarily what we are seeing in Alabama. If ICE were 
to limit 287(g) context, it would be a grave mistake.
    With the success of Florida and Alabama, we are now poised, 
we are in a position to move forward and expand this program. 
Despite the improvements ushered in by the Immigration Reform 
Act of 1996 we have seen the breakdown of that rule of law 
continue for the past 9 years the obviously 9/11 highlighted 
the importance of immigration enforcement in the war on 
terrorism.
    The infrastructure for the MOU is in place. We have the 
training system set up, we have the models of past MOUs. The 
success of Florida and Alabama is prompting other jurisdictions 
to knock at the door of ICE. Interest has been expressed 
publicly by leaders in Arizona, Connecticut, Orange and San 
Bernardino County California and other jurisdictions.
    However, first ICE needs to have a dedicated staff who have 
the resources and who are 200 percent focused on this mission 
of expanding the Section 287(g) and responding to state 
requests in a timely manner.
    Second, state and local law enforcement agencies need the 
assurance that they will be compensated for their expenses. As 
we have heard, there are costs associated with transportation 
to the training location. In some cases, substitutes need to be 
provided for the officers who are away receiving this training. 
And while many jurisdictions, such as Alabama and Florida, are 
willing to foot the bill in the short term because they know 
that in the long term better immigration enforcement will 
result in cost savings for their jurisdiction because the other 
attendant problems that follow with the breakdown of the rules 
on immigration do not occur.
    Many jurisdictions just cannot even begin to take that 
first step until they see that they are going to be 
reimbursement.
    It is become a cliche to say that since 9/11 we have to 
have better cooperation between state and federal law 
enforcement if we went to improve our homeland security. All 
too often I believe those words are empty, they are devoid of 
real meaning. It is just something people say.
    In contrast, Section 287(g) is a real program with proven 
results. It is a tangible way for state and law enforcement to 
significantly improve the enforcement of immigration law and 
the homeland security of the United States. I wholeheartedly 
urge this committee to support its expansion.
    [The statement of Mr. Kobach follows:]

                  Prepared Statement of Kris W. Kobach

    Mr. Chairman and Members of the Committee, it is an honor and 
privilege to appear before you today to discuss a proven mechanism for 
securing our homeland and restoring the rule of law in immigration: 
Section 287(g) of the Immigration and Nationality Act, codified at 8 
U.S.C. Sec. 1357(g). I was involved in overseeing the first application 
of Section 287(g) during my service as Counsel to the U.S. Attorney 
General from September 2001 through July 2003. After Florida's 
successful Section 287(g) agreement, I did everything I could to ensure 
that Alabama's request for a Section 287(g) agreement was met with a 
timely and satisfactory commitment from the Justice Department, which 
was then carried out by the Department of Homeland Security. However, 
my testimony should not be taken to represent the past or present 
position of the U.S. Department of Justice. I offer my testimony solely 
in my private capacity as a Professor of Law.
Section 287(g) Authority Versus Inherent Arrest Authority
    At the outset, it is important to define precisely the scope of the 
authority we are discussing. Many observers in the press have confused 
the relatively broad Section 287(g) Authority, which represents a 
delegation of enforcement power from Congress to the states, with the 
narrower inherent arrest authority that the states have always 
possessed. A few comments clarifying this distinction may be helpful at 
this point.
    The inherent authority of local police to make immigration arrests 
was recognized by the Justice Department's Office of Legal Counsel 
(OLC) and was announced by Attorney General Ashcroft on June 6, 2002. 
OLC's unequivocal conclusion was that arresting aliens who have 
violated either criminal provisions of the Immigration and Nationality 
Act (INA) or civil provisions of the INA that render an alien 
deportable ``is within the inherent authority of the states.'' \1\ Such 
inherent arrest authority has never been preempted by Congress. This 
inherent authority is simply the power to arrest an illegal alien who 
is removable, detain the alien temporarily, and then transfer the alien 
to the custody of the Bureau of Immigration and Customs Enforcement 
(ICE).
---------------------------------------------------------------------------
    \1\Attorney General's Remarks on the National Security Entry-Exit 
Registration System, June 6, 2002.
---------------------------------------------------------------------------
    In contrast, Section 287(g) delegates authority that is 
considerably broader than the power to merely arrest an alien and 
transfer him to ICE custody. Section 287(g) encompasses the spectrum of 
basic enforcement powers. Such 287(g) authority includes not only the 
power to arrest and transfer, but also the power to investigate 
immigration violations, the power to collect evidence and assemble an 
immigration case for prosecution or removal, the power to take custody 
of aliens on behalf of the federal government, and other general powers 
involved the routine enforcement of immigration laws. This broader 
enforcement authority can only be delegated to state and local law 
enforcement agencies through a formal Memorandum of Understanding 
(MOU), which effectively deputizes members of state or local law 
enforcement agencies to perform the ``function[s] of an immigration 
officer.'' 8 U.S.C. Sec. 1357(g).
    Appropriately, Congress expressly recognized in 1996 that the 
creation of Section 287(g) would not displace the inherent arrest 
authority that local police might choose to exercise from time to time 
and without express delegation from the federal government:
        Nothing in this subsection shall be construed to require an 
        agreement under this subsection in order for any officer or 
        employee of a State or political subdivision of a State--
        (A) to communicate with the Attorney General regarding the 
        immigration status of any individual, including reporting 
        knowledge that a particular alien is not lawfully present in 
        the United States; or
        (B) otherwise to cooperate with the Attorney General in the 
        identification, apprehension, detention, or removal of aliens 
        not lawfully present in the United States.

8 U.S.C. Sec. 1357(g)(10).

The Success of Section 287(g) Thus Far
    To date, two states--Florida and Alabama--have signed Section 
287(g) agreements with the federal government. The Florida MOU became 
effective on July 7, 2002. Under that agreement, 35 Florida law 
enforcement officers were trained for six weeks and were delegated 
specific immigration enforcement powers, including the power to 
interrogate, the power to collect evidence, and the power to conduct 
broad immigration investigations. The success of the program was 
immediately apparent. In the first year under the Florida MOU, the 
trained state officers made 165 immigration arrests, including the bust 
of a phony document production ring in the Naples area.
    The Alabama MOU was signed on September 10, 2003. Under the 
agreement, the first group of 21 Alabama state troopers undertook five 
weeks of immigration enforcement training, which they completed in 
October 2003. The Alabama officers received training in the procedures 
of immigration investigations, the identification of fraudulent 
immigration documents, the use of national immigration databases, the 
details of immigration law, and specific document requirements for 
illegal aliens. Since then, the Alabama troopers have made nearly 200 
immigration arrests. A second class of 25 troopers will receive 
training in October 2005.

Targeting Different Problems in Different Jurisdictions
    Although there are many similarities between the MOUs of Florida 
and Alabama, it is important to recognize that the law enforcement 
environments of the two states were different, and the MOUs in each met 
different needs. Florida's initial interest in seeking a Section 287(g) 
agreement was driven in part by the exigencies of 9/11 and the 
recognition that state and local law enforcement can increase their 
effectiveness in the war against terrorism with the addition of Section 
287(g) enforcement authority. State and local police officers are often 
in the best position to come into contact with alien terrorists 
operating in the United States. Four members of the 9/11 terrorist 
cohort were stopped by state and local law enforcement in the United 
States for routine traffic violations. In all four of those instances, 
the aliens were illegally present in the United States. (The four 
hijackers who were stopped by police were Nawaf al Hazmi, Mohammed 
Atta, Hani Hanjour, and Ziad Jarrah.) Also relevant was the fact that 
several of the 9/11 hijackers had either entered the United States 
through Florida or had operated in Florida while preparing for the 
attack. The suspected twentieth hijacker, Mohamed Al Khatani, also flew 
to Orlando International Airport; but he was denied entry by a vigilant 
immigration inspector. Accordingly, the desire to counter alien 
terrorists was central to the Florida MOU at the time of its inception.
    In contrast, Alabama faced a different challenge. Alabama had 
experienced widespread and increasing violations of federal immigration 
law by aliens in its jurisdiction. However, the distribution of INS 
manpower left Alabama underserved, in the judgment of Alabama's law 
enforcement leadership and members of its congressional delegation. At 
times, as few as three INS interior enforcement agents were operating 
in the state. Recognizing that breakdown of the rule of law in 
immigration carries with it attendant public safety threats, Alabama 
addressed the INS manpower shortage by committing its own officers to 
the task.
    These are not the only needs that Section 287(g) authority can 
address. Other jurisdictions will find other uses for an MOU. Perhaps 
the greatest law enforcement threat of recent years is the rise of 
violent alien street gangs. A few statistics illustrate the scope of 
the problem. Mara Salvatrucha-13 (MS-13), the most notorious and 
fastest-growing alien gang, started as a Salvadoran gang in Los Angeles 
in the late 1980s. MS-13's more than 10,000 members now operate in at 
least 33 states. And MS-13 still remains smaller than the largest alien 
gang, the 18th Street Gang--which started in Los Angeles with primarily 
Mexican membership and then expanded nationwide. It is estimated to 
have more than 20,000 members in the Los Angeles area alone. In both 
gangs, the majority of members are illegal aliens. The gangs generate 
cash in different ways in different parts of the country. But by far, 
the most common forms of activity are drug trafficking, theft, gun 
trafficking and immigrant smuggling. Where MS-13 or the 18th Street 
Gang establish a presence, the killings inevitably follow. In Los 
Angeles, the various street gangs accounted for 291 of the city's 515 
homicides in 2004--an increase of 12.4% in gang killings over 2003.
    Because so many of these gang members are aliens without lawful 
presence in the United States, sustained enforcement of immigration 
laws can have a massive impact in fighting this national scourge. This 
was demonstrated in March 2005, when ICE announced the arrest of 103 
members of MS-13 in an effort spanning several weeks known as Operation 
Community Shield. Although all of the aliens were arrested for 
violations of federal immigration laws, approximately half had prior 
arrest records of prior convictions for violent crimes.
    Local police departments provided to ICE lists of names of known 
alien gang members. ICE then ran those lists through its databases to 
determine which of those aliens were legally present in the country. 
After determining that the alien gang members were illegally present, 
ICE conducted a series of arrests with the help of local law 
enforcement. This operation demonstrated powerfully how immigration 
enforcement can serve as an invaluable tool to combat gangs when 
illegal aliens comprise a substantial proportion of gang members. In 
dealing with these deadly gangs, state and local police need every law 
enforcement tool at their disposal.
    Section 287(g) authority can be particularly useful in dealing with 
alien street gangs. Operation Community Shield was a successful 
episode, but its limitation is precisely that--it was an episode. Every 
day, police officers in gang-ridden jurisdictions encounter alien gang 
members who are known to have been previously deported or who are 
suspected of being unlawfully present in the United States. Section 
287(g) authority would enable those jurisdictions to continuously and 
routinely remove those illegally-present gang members from the streets 
of our communities. With police officers trained in immigration 
enforcement, the checking of gang members' names against national 
databases and the enquiring into immigration violations could be done 
locally, quickly, and regularly.
    Another need that Section 287(g) agreements can address is the 
problem of massive numbers of removable felons incarcerated in state 
prison systems across the country. ICE's institutional removal program 
is intended to identify and take custody of such felons before they are 
released. Unfortunately, many felons slip through the cracks. Training 
state law enforcement officers to screen incarcerated felons and 
determine which ones are removable can fill in the gaps and ensure that 
criminals who are not entitled to remain in the United States are, in 
fact, removed. The agreement being considered in Los Angeles County, 
California, is an example of an MOU that addresses this need.

Existing Infrastructure and Additional Funding
    With the demonstrated success of Section 287(g) authority in 
Florida and Alabama, we are now in a position as a nation to expand 
this program. Indeed, we need to expand this program. Despite the 
statutory improvements ushered in by the Illegal Immigration Reform and 
Immigrant Responsibility Act of 1996, the breakdown of the rule of law 
has only worsened in the intervening nine years. In addition, the 
attacks of 9/11 highlighted the importance of securing our borders in 
the war against terrorism.
    The infrastructure for additional MOUs is already in place. The 
training model has been developed. And the success of Florida and 
Alabama is prompting law enforcement agencies across the country to 
knock on ICE's door. Interest has been expressed publicly in leaders in 
Arizona, Connecticut, Orange County and San Bernardino County, 
California, and other jurisdictions. However, two things are missing. 
First, ICE needs to dedicate personnel to the task of responding to 
such requests for Section 287(g) agreements in a timely manner. Second, 
state and local law enforcement agencies need assurance that they will 
be compensated for their expenses. The costs of transportation to the 
training location and providing temporary replacements for law 
enforcement personnel who are participating in the training can be 
substantial. Indeed, the existing wording of Section 287(g) deters some 
local law enforcement agencies from enquiring further: the immigration 
enforcement functions are to be `carr[ied] out. . .at the expense of 
the State or political subdivision.'' While many some jurisdictions are 
willing to foot the bill in the short run, because they realize that 
better immigration enforcement will prevent other more costly law 
enforcement problems from arising in the long run, other jurisdictions 
are unable to contemplate any additional expenses. The infusion of 
federal dollars into the Section 287(g) program will remove that 
impediment for jurisdictions that would otherwise seek to participate.
    It has become a cliche since 9/11 to say that enhanced state-
federal cooperation is essential if we are to improve our homeland 
security. All too often those words are devoid of real meaning. 
However, Section 287(g) is a program that facilitates systematic, 
structured cooperation with proven results. I wholeheartedly urge this 
Committee to support its expansion.

    Mr. Rogers. Thank you, Dr. Kobach.
    The chair now recognizes Chief Jimmy Fawcett, sixth vice 
president of the International Association of Chiefs of Police, 
for any remarks that you may have. Chief Fawcett?

                   STATEMENT OF JIMMY FAWCETT

    Chief Fawcett. Mr. Chairman, distinguished members of the 
subcommittee, I am pleased to be here with you this morning to 
provide the comments of the International Association of Chiefs 
of Police on this important and challenging issue.
    The questions of what role should state, tribal and local 
law enforcement should play in the enforcement of federal 
immigration laws has long been discussed and debated among 
members of our association. Significantly, in the 112-year 
history of the IACP, the membership has never adopted a 
resolution or policy position on this vital question, and the 
reason for this silence is clear: There is a significant 
difference of opinion in the law enforcement profession on this 
issue.
    Many law enforcement executives believe that state, tribal 
and local law enforcement should not be involved in the 
enforcement of civil immigration laws since such involvement 
would likely have a chilling effect on both legal and 
immigrants reporting criminal activity or assisting police in 
criminal investigations. They believe that this lack of 
cooperation could diminish the ability of law enforcement 
agencies to effectively police their communities and protect 
the community they serve.
    Other law enforcement executives believe that it is 
appropriate for law enforcement to play an active role in 
immigration enforcement, because individuals who are in the 
country illegally have violated the law and should be treated 
in the same fashion as other criminals. They feel that it is 
the duty of law enforcement to assist the federal government 
and to apprehend and detain these individuals.
    Both viewpoints raise valid arguments, and it is easy to 
understand why no consensus has been reached and no policy 
position has been adopted by the IACP. It is the IACP's strong 
and fundamental belief that the question of state, tribal or 
local law enforcement's participation in immigration 
enforcement is in the inherently local decision that must be 
made by the police chief, working with their elected officials, 
community leaders and citizens.
    However, given the increasing importance of this issues, 
the IACP Executive Committee, in the fall of 2004 developed and 
released a position paper, that you have, that examines the 
concerns and obstacles that currently hinder enforcement 
efforts by the law enforcement, and it sets forth what we 
determined should be key elements of any immigration 
enforcement activity by non-federal law enforcement agencies.
    In our policy paper, the IACP identified the following 
obstacles and concerns with the involvement of state, local and 
tribal officials in immigration enforcement. These include 
confusion over immigration law, training requirements, 
limitations on arrests without warrants, liability concerns and 
the chilling effects on immigrant cooperation with law 
enforcement officials.
    Given these concerns, the IACP believes that at any effort 
seeking to have state, tribal or local law enforcement agencies 
participate in immigration enforcement must, at a minimum, 
contain the following essential elements.
    First, because of the question of law enforcement's 
participation in immigration enforcement is an inherently local 
decision, the IACP believes that any legislative proposal to 
enlist the assistance of non-federal agencies in immigration 
enforcement must be based on the completely voluntary 
cooperation of these law enforcement agencies.
    Second, in order to clarify the authority of state, tribal 
and local law enforcement to act in matters related to 
immigration enforcement, it is necessary for the federal 
government to issue a clear and complete statement that 
outlines the role of such law enforcement agencies in this 
effort and enumerates the legal authority of these officers to 
act in these matters.
    Third, it is imperative that state, tribal and local 
officers receive training on the enforcement of immigration 
law. Addressing immigration violations such as illegal entry or 
remaining in the country without legal sanction require 
specialized knowledge of the suspect's status and visa history 
and the complex civil and criminal aspects of the federal 
immigration law and their administration.
    This is significantly different from identifying someone 
suspected of the type of criminal behavior that local officers 
are trained to detect, and without adequate training, local 
patrol officers will not be in the best position to make these 
complex legal determinations.
    Straying from my document a little bit that you have 
already received, another major concern, and I cannot overstate 
this, is resources. We are all strapped at this time for our 
resources. Our local budgets are being cut, federal dollars are 
being cut that we have received in the past, and so resources 
are going to be a major component for our agencies to 
participate.
    Finally, it is important that any immigration enforcement 
initiative provide a liability shield that provides both 
personal liability immunity to law enforcement officials for 
enforcing federal immigration laws within the scope of their 
duties and immunity for enforcing immigration laws unless their 
personnel violated criminal law in such enforcement.
    While the IACP has not yet adopted a position either in 
support or opposition to the 287(g) Program, I would like to 
conclude my remarks by noting that the program does appear to 
satisfy many of the conditions set forth in our position paper. 
Participation in the program is strictly voluntary. The 
authority of state, tribal and local officers to enforce 
immigration laws is clarified, and designated state and local 
law enforcement officers receive specialized immigration 
enforcement training.
    In short, the 287(g) Program appears to establish an 
effective and productive partnership between federal 
enforcement agencies and willing state, tribal and local law 
enforcement officials. The Department of Homeland Security and 
the U.S. Immigration and Customs Enforcements Agencies are to e 
commended for the cooperative approach they have adopted, as 
both law enforcement officials and the nation seeks a solution 
to this complicated and important issue.
    That concludes my remarks. Thank you.
    [The statement of Chief Fawcett follows:]

                  Prepared Statement of Chief Fawcett

    Good Morning Mr. Chairman and Members of the Subcommittee:
    I am pleased to be here with you this morning to provide the 
comments of the International Association of Chiefs of Police on this 
important and challenging issue.
    The question of what role should state and local law enforcement 
play in the enforcement of federal immigration laws has long been 
discussed and debated among members of the law enforcement community. 
Significantly, in the 112-year history of the IACP, the membership has 
never adopted a resolution or policy position on this vital question 
and The reason for this silence is clear. There is a significant 
difference of opinion in the law enforcement profession on this issue.
    Many law enforcement executives believe that state and local law 
enforcement should not be involved in the enforcement of civil 
immigration laws since such involvement would likely have a chilling 
effect on both legal and illegal aliens reporting criminal activity or 
assisting police in criminal investigations. They believe that this 
lack of cooperation could diminish the ability of law enforcement 
agencies to effectively police their communities and protect the public 
they serve.
    Other law enforcement executives believe that it is appropriate for 
state and local law enforcement to play an active role in immigration 
enforcement because individuals who are in the country illegally have 
violated the law and should be treated in the same fashion as other 
criminals. They feel that it is the duty of state and local law 
enforcement to assist the federal government and to apprehend and 
detain these individuals.
    Both viewpoints raise valid arguments and it is easy to understand 
why no consensus has been reached and no policy position has been 
adopted by the IACP. It is the IACP's strong and fundamental belief 
that the question of state, tribal or local law enforcement's 
participation in immigration enforcement is an inherently local 
decision that must be made by a police chief, working with their 
elected officials, community leaders and citizens.
    However, given the increasing importance of this issues, the IACP 
Executive Committee, in the fall of 2004 developed and released a 
position paper that examined the concerns and obstacles that currently 
hinder enforcement efforts by the state, tribal and local law 
enforcement community, and to set forth the what we determined should 
be key elements of any effort immigration enforcement activities by 
non-federal law enforcement agencies. At this time, I would like to 
submit a copy of this position paper for the record.
    In our policy paper, the IACP identified the following obstacles 
and concerns over the involvement of state and local officials in 
immigration enforcement these included Confusion over Immigration Laws; 
Training Requirements; Limitations on Arrest Without Warrant; Liability 
Concerns and the Chilling Effects on Immigrant Cooperation with state 
and local law enforcement officials.
    Given these concerns, the IACP believes that at a minimum, any 
effort seeking to have state and local law enforcement agencies 
participate in immigration enforcement must, at a minimum contain the 
following essential elements.
    First, Because the question of state, tribal or local law 
enforcement's participation in immigration enforcement is an inherently 
local decision, the IACP believes that any legislative proposal to 
enlist the assistance of non-federal agencies in immigration 
enforcement must be based on the completely voluntary cooperation of 
state/local law enforcement agencies.
    Second, in order to clarify the authority of state, tribal and 
local law enforcement to act in matters related to immigration 
enforcement, it is necessary for the federal government to issue a 
clear and complete statement that outlines the role of state, local and 
tribal law enforcement agencies in this effort and enumerates the legal 
authority of state, local and tribal law enforcement officers to act in 
these matters.
    Third, it is imperative that state and local officers receive 
training on the enforcement of immigration laws. Addressing immigration 
violations such as illegal entry or remaining in the country without 
legal sanction require specialized knowledge of the suspect's status 
and visa history and the complex civil and criminal aspects of the 
federal immigration law and their administration. This is significant 
different from identifying someone suspected of the type of criminal 
behavior that local officers are trained to detect and without adequate 
training, local patrol officers will not be in the best position to 
make these complex legal determinations.
    Finally, it is important that any immigration enforcement 
initiative provide a liability shield that provides both Personal 
liability immunity to state, tribal and local law enforcement officials 
for enforcing federal immigration laws within the scope of their duties 
and Immunity for state, tribal or local agencies enforcing immigration 
laws unless their personnel violated criminal law in such enforcement.

The 287(g) Program
    While the IACP has not yet adopted a position, either in support or 
opposition to the 287(g) program, I would like to conclude my remarks 
by noting that the program does appear to satisfy many of the 
conditions set forth in our position paper. Participation in the 
program is strictly voluntary; the authority of state and local 
officers to enforce immigration law is clarified and designated state 
and local law enforcement officers receive specialized immigration 
enforcement training.
    Law enforcement executives throughout the nation are committed to 
doing all that can be done to protect our communities from crime and 
violence.

    Mr. Rogers. Thank you, Chief Fawcett.
    I have a few questions I would like to ask.
    In listing to your concerns and priorities, as you 
mentioned in your statement, the current program addresses the 
first three. Of course, the fourth, resources, is something we 
talked about on the earlier panel and we feel like the upcoming 
authorization and appropriation is going to allow more local 
governments to practically participate because there will be 
the opportunity for backfill expenses to be covered.
    The liability shield you referenced, is that a big 
obstacle, in your view, to participation in this program?
    Chief Fawcett. It is a major concern for local governments 
before they can make a commitment to be a participant in these 
programs. So I would say that, yes, we are going to have to 
address the local communities' concerns.
    Mr. Rogers. Dr. Kobach, what do you think about the 
liability shield being a hurdle?
    Mr. Kobach. I have heard from local law enforcement 
agencies who are concerned about that specific issue. 
Obviously, it was not a prohibitive concern for Alabama or 
Florida. There are also, depending on the state legal 
environment you are operating in, the officers are safer from 
liability than in other states. So it really depends on the 
context.
    I think there is no question that that would encourage some 
local law enforcement agencies who are worried about that 
particular problem, and I would agree with the other witness 
that there are some that are.
    Mr. Rogers. I would ask this: In the view of each of you, 
do you think that that would be an insurmountable obstacle for 
the majority of other states?
    Obviously, it has not been a concern for Alabama or 
Florida, but I will start with you, Chief, do you think that 
with most states' local governments that that particular 
shortcoming would be insurmountable?
    Chief Fawcett. Mr. Chairman, I believe that comparing the 
local agency with the state agency is very different and that 
the approaches at the local level where the agency is held to a 
higher degree of accountability is going to be very different 
than at the state level. And so I think that in the local 
communities, if their officers are to be involved in these 
enforcement efforts, that they are going to want to see some 
immunity or they are going to want to see some protection.
    Mr. Rogers. You made reference to the local officers being 
held to a higher standard than the state officers. What do you 
mean?
    Chief Fawcett. Not higher but they are more closely 
scrutinized because their communities are smaller, their 
councils, their governments watch their activities more 
closely, they direct their operations more closely. In the 
state of Texas where I am from, our legislature meets every 
other year, and so while there are governing agencies that are 
active year-round there, there is still the vastness of the 
state and then what happens at the local level.
    Mr. Rogers. Dr. Kobach?
    Mr. Kobach. Yes. I do not think it is an insurmountable 
problem. I think that it can, in part, be overcome by 
information. The worries about the liability risk are greater 
than the reality of it. Once the officers receive the training, 
then they become unlikely to make a mistake that would trigger 
an actionable violation of anyone's civil rights.
    And then, secondly, it is important to remember that these 
officers are not turned loose and out there operating 
completely alone. At every step of the way, they are 
coordinating with supervisors at ICE. And so their decisions 
are being shared with people who have a great deal of 
experience in the area.
    And then, finally, I would say you ultimately have someone 
moving into the immigration court system. And so that is where 
oftentimes if there are challenges to the enforcement of 
immigration law, in my experience, I see many of those 
challenges occur because of the immigration judge's decision or 
the refusal to see certain--you do not see that many challenges 
to the initial apprehension of someone being taken into 
custody.
    Mr. Rogers. I have one last question, my time is about 
expired.
    I did want to address to you, Dr. Kobach. You made 
reference, I thought pretty effectively earlier, about how bad 
the people are that we are trying to detect with programs like 
this, and you made reference to the gangs more in this region. 
Can you speak briefly to the effectiveness of this program at 
discerning who these really bad illegal aliens are in Florida 
and Alabama?
    Mr. Kobach. Yes. The program allows the officers to have, 
as has been mentioned by the prior panelists, access to 
databases and greater familiarity with the patterns of alien 
smuggling, the patterns of drug smuggling that often are 
concurrent with those.
    Mr. Rogers. But can you give us a couple of examples, I 
guess is what I am asking.
    Mr. Kobach. I do not have specific anecdotes that I brought 
testimony about today.
    Mr. Rogers. Okay. But in your view, your review of these 
two particular state pilot projects they have been effective at 
detecting the kind of people that you described in these gangs.
    Mr. Kobach. Oh, absolutely. And I think the Operation 
Community Shield, even though that was not a 287(g) Program, 
that clearly is something that 287(g) could accomplish. So if 
you take that example, and there you have specific individuals 
who are--the name of the leader of MS-13 was El Guapo was his 
gang name, and he was arrested by simply matching his name 
against the fact that he was illegally in the country. Those 
are clear examples of how you can locate specific individuals 
who are in the leadership or in the membership of these gangs 
and use immigration law to take them off the street.
    Mr. Rogers. Thank you. My time has expired.
    The chair now recognizes the ranking member, Mr. Meek, for 
any questions he may have.
    Mr. Meek. Thank you.
    Mr. Kobach, I want to ask you a question. You referred to 
there was testimony in the last panel saying we need to limit 
287 to corrections only?
    Mr. Kobach. I believe that they said the focus going 
forward would be in correctional institutions. It was unclear 
to me exactly whether it would be limited or whether it would 
be focused or--
    Mr. Meek. I know that there was a program that they were 
talking about that was discussed within local jurisdictions. 
Mr. Kilcoyne mentioned it.
    Mr. Kobach. I believe he was referring to the Institutional 
Removals Program, which is something that did not operate with 
state and local enforcement when making the determination.
    Mr. Meek. Sure. You seem to have numbers that ICE does not 
have at this point, and if they do have it, they do not know 
they have it. You mentioned of the issue of arrests, and you 
came up with some specific numbers. You said over 200 arrests 
that have been made in Florida and a number of them in Alabama. 
Where did you get that data?
    Mr. Kobach. Almost 200 in Alabama. Those numbers, I 
believe, came from a release by the Alabama law enforcement 
community. I know that Senator Sessions used those numbers on 
the floor of the Senate not too long ago. And in terms of the 
Florida numbers those numbers were made public, I believe, 
shortly after the one-year anniversary of the Florida Program, 
and ICE certainly has those numbers. They may not have chosen 
to include in their testimony.
    Mr. Meek. Are they 287 numbers or are they general numbers?
    Mr. Kobach. Yes, they are 287(g) numbers. Because, again, 
there was a lot of focus on the Florida program and the 
Department of Justice and we were looking for what those 
numbers were.
    Mr. Meek. Do you know what is interesting in this whole 
thing, we have been sitting here for about--I guess the 
committee started at 10 and we are almost going on 3 hours now. 
And I am getting quite confused because I do want the numbers, 
and I would assume that the assistant to the director would 
have those numbers.
    I asked the director of the whole Florida operation, and 
then we had the Major here from the troopers in Alabama that 
are intimately involved in it, and they could not come up with 
any solid numbers. I think it would be good for us, for the 
future of the program to be able to--let's figure out what the 
numbers are, and let's look at strategic value as it relates to 
the individuals that are being arrested.
    Are the numbers, like I mentioned before, the landscape 
architect that had the broken headlight or is it the 
individual, the person of interest that we felt that by 
arresting this individual that we have saved lives? Because 
this is a very, very and could be a very, very--it is already 
expensive for the two pilot programs in the county that we have 
in it now.
    I wanted to ask you, because you have been a professional 
in this thing, and you were over at the Justice Department and 
from what I can read of your bio, you have educated yourself 
well. But I wanted to ask you this: As it relates to the 9/11 
bill we passed last December, I think that a number of 
individuals knew that there were stovepipe issues you did refer 
to, and I knew it was going to come up sometime during this 
hearing, about the small number of hijackers that were stopped 
by the law enforcement individuals that stopped them on the 
road.
    I can tell you there are a lot of what-ifs prior to 9/11. 
If we would have had better intelligence, if we would have 
listened to this FBI agent who said we need to watch out for 
these guys that are training. So there are a lot of ifs out 
there. I just want to narrow it down. If you had a choice 
between providing the funding to be able to hire additional ICE 
officers or border security individuals or funding this 
program, the 287 Program, which one would you think would be a 
sound investment for members of Congress to invest in if you 
were where I am sitting now?
    Mr. Kobach. Thank you for that question. I think it is a 
very good question and a tough question. Let me just respond 
one more point about the numbers. I believe those numbers are 
actually in the quarterly report and because the prior 
witnesses may not have had those reports in front of them. I am 
sure the numbers are gettable, so I am sure you can obtain 
them.
    With respect to your question about the hijackers and the 
what-ifs and where should the money go, I would look at this 
way: Look where the money goes when we try to hire ICE agents. 
I was in the Department of Justice at the time of 9/11, and we 
were shocked to find that our number of interior enforcement 
agents was so low, just below 2,000 for the entire country. We 
then set about hiring as fast as we could.
    Well, where are we today? About the same number, right 
around 2,000. This is after 9/11. What is going on? A couple of 
things are going on. One is that it is difficult to hire fast 
enough to keep up with the money that is coming in for the 
hiring. In many instances, especially right after 9/11, INS was 
competing against the air marshals, against the FBI, against 
other law enforcement agencies that were also trying to hire.
    Secondly, attrition. The federal law enforcement ranks are 
seeing attrition as baby boomers retire, just like private 
industry is too. And so seeing those numbers grow is very 
difficult in the federal.
    But let's look at your question and that is where would you 
invest the money? Well, let's use the numbers that we heard, 
$170,000 or so for a class of 50 people. Well, that is roughly 
$3,500 per student--a one-time expenditure of $3,500. In 
contrast, right now, the modular cost to hire and train one ICE 
agent is $198,000. After that, you then pay a salary every 
year, and let's say it starts around $80,000 and goes up. So 
you are talking $198,000 and then $80,000 every year after 
that, and you get one individual.
    It seems to me that your money goes a lot further if you--I 
am not saying you should not do both but your money goes 
further if for $3,500 you get another set of feet on the street 
and that individual is out there, and if he does happen to run 
into Mohammed Atta who is getting a speeding ticket, he can 
actually act in a more effective way than most police officers 
can act.
    Mr. Meek. I have a couple more questions for you.
    Mr. Chairman, I hope there is a second round.
    I know we have another member here, but I have a couple 
more questions for you. I appreciate that response because that 
was good.
    And, also, we want to get your source for the numbers so 
that we can have it, because I think that is important. I mean, 
now we are talking about appropriations. We definitely have 
already talked and taken action on authorization. There is 
going to have to be some hard numbers out there because there 
will be some staffers looking for that kind of stuff. But I 
will ask in the second round when we get to it.
    Mr. Rogers. Thank the gentleman. The gentleman yields back.
    The chair now recognizes the gentleman from Washington, Mr. 
Reichert, for any questions he may have.
    Mr. Reichert. Thank you, Mr. Chairman.
    How many members are in the IACP?
    Chief Fawcett. Approximately 20,000, sir.
    Mr. Reichert. Twenty thousand.
    Chief Fawcett. Yes, sir.
    Mr. Reichert. I am a past member of IACP and also a 
lifetime member of the NSA, and having participating in those 
two groups, it is not surprising to me that you could not get 
agreement on this document, and you know what I am talking 
about.
    Chief Fawcett. Yes, sir.
    Mr. Reichert. But it is good news, though, that you did 
come up with four things, the voluntary aspect, which is 
addressed in 287(g). Most of the things that--well, all of them 
really, the role must be clear, I think, the Texas police chief 
and the sheriff, that is something we have to have a clear role 
in responsibility training. Have you had a chance to look at 
the training program, the schedule? Has IACP evaluated the 
training program at all?
    Chief Fawcett. We have not yet, sir.
    Mr. Reichert. You are aware of some of the items. I think I 
mentioned earlier some of the items. Are those not items that 
most officers receive in their initial basic training?
    Chief Fawcett. Many of the items that you spoke of earlier 
are required in our continuing training.
    Mr. Reichert. Yes. Even some of those training blocks are 
they not training blocks that must be continued training 
throughout an officer's career, refresher courses?
    Chief Fawcett. Yes, sir.
    Mr. Reichert. And so this training is provided to the 
agency that volunteers to be a participant. Does that not 
reduce the cost in some way for your training program?
    Chief Fawcett. Possibly, not entirely. It is going to 
depend on the requirements of the state. I can see where it 
could be beneficial in my state, providing the training got 
certification from my licensing agency, which could be done.
    Mr. Reichert. In any training that you do, isn't there 
always a backfill cost?
    Chief Fawcett. Yes, sir, there is.
    Mr. Reichert. It would be nice, though, for the federal 
government in this case to provide that backfill cost since we 
are assisting them in this way, local law enforcement I am 
referring to.
    Mr. Chairman, I think I will stop with that. Thank you.
    Mr. Rogers. The gentleman yields back.
    The chair now recognizes the ranking member for any 
additional questions he may have.
    Mr. Meek. Yes, sir.
    Doctor, I wanted to just ask you, the 9/11 Commission, and 
I am pretty sure you had an opportunity to take a look at some 
of their findings, they do not speak of 287. They speak of 
hiring of more ICE agents and they call for a number which the 
administration still has not risen to the occasion to be able 
to fund this at that level.
    But as it relates to the 287 issue, it may be a good 
solution for the federal government and the federal purpose of 
trying to head off the issue of illegal immigrations or 
individuals that are here illegally. But in the long-term 
effects, because those are mainly where my questions are going 
towards long-term effects of the program, it is almost like the 
Department of Homeland Security. I do not look at it as a right 
now kind of thing. I look at where we are going to be in 
another 5 or 6 years, how the country will feel about the 
Department of Homeland Security.
    You know the Patriot Act issue was just on the floor. We 
have a House and Senate version, I guess, that is close, and we 
are going to go to conference on it. It is how everyday 
Americans feel about the Patriot Act, which is a tool that is 
supposed to help them protect themselves. This 287 issue I 
think is on the early years, and it is kind of politically good 
founding kind of thing, ``Hey, guess what? We are going to 
train local law enforcement officers in identifying individuals 
that are here illegally.
    And we know that there will be some issues. After 9/11, 
there were issues about profiling and there were not issues 
about profiling. There were issues about sensitivity, then 
there were not issues about sensitivity. But now it is going to 
be issues of funding and longevity and soundness of the 
program.
    And that is the reason why I was questioning the assistant 
director of the last panel about these steering committees. Is 
it just all of us that are carrying badges and identifications 
on the law enforcement end or is there a need to bring in some 
other folks as this thing continues to broaden?
    Because I believe when we get out of the Florida Department 
of Law Enforcement area, which is the Florida version of the 
FBI or investigative agency, we start getting into uniform 
personnel and then the issues that come along with that. I am 
not talking about the issues of profiling only, I am talking 
about the issues that deal with overtime, deal with individuals 
off the road.
    Can we afford to do that and then stand behind the 
legislation we passed in December, the 9/11 bill? And those are 
the questions, and I know those are issues that you will be 
studying and also the chiefs will be looking at as they move 
forward.
    Mr. Kobach. I think your question touches on a number of 
subjects, and I will try to give as precise an answer as I can.
    With respect to the 9/11 Commission and Section 287(g) 
authority, I think it is fair to say that 287(g) was not 
squarely within the scope of the 9/11 Commission's research. 
There was no MOU in effect at the time of 9/11, and they were 
looking at the mistakes that were made within that legal 
context at the time.
    I have read the 9/11 report and the appendices, and there 
is really nothing about it you are right, but I do not think it 
is because they considered 287(g) and rejected it, I just do 
not think it was squarely within the ambit of their concerns.
    As far as the long-term effects of the program, and your 
thoughts down the road 5 or 6 years, where would we like to be, 
where would we like to spend our money? Well, I would like to 
answer that question. Let's imagine that Congress had an 
unlimited amount of money or virtually unlimited amount of 
money to give to ICE or that there was a very, very deep well, 
say, to draw from.
    Mr. Meek. Have you seen the deficit lately?
    [Laughter.]
    Mr. Kobach. I hasten to add, it does not match.
    Mr. Meek. A deep line of credit.
    Mr. Kobach. A deep line of credit. Let's suppose that ICE 
could hire as many as they wanted and as many as they could. 
Because of the hiring barriers, which I saw firsthand right 
after 9/11 and which still exist in ICE, I would be very 
surprised if we could go from 2,000 even to 4,000. I do not 
think you could double ICE's interior enforcement strength in 6 
years. I doubt you could even get to 3,000 because of the 
incredible barriers of hiring, training and retaining.
    So when you consider the numbers here and you consider the 
fact that we have, by most estimates, well over 10 million 
illegal aliens in the country, of which a certain small 
percentage present either terrorist or law enforcement 
problems, if you are dealing with a haystack that big and you 
only have 2,000 officers for the entire country, you need to 
have some help from the law enforcement officers who every day 
are out there on the streets.
    And you can get that help even at the fairly high cost of 
training right now, you can get the help for about $3,500 for 
another set of feet that is attuned to immigration violations 
and can assist if there is someone out there who is illegally 
present in the country and either poses a criminal threat or a 
terrorist threat.
    Mr. Meek. Dr. Kobach, I mean, I hear what you are saying 
and I agree with you, and we can go back and forth, and I want 
to thank you for coming before the panel also.
    Chief, I want to thank you for coming also and sitting 
through the first panel and getting some, I guess, additional 
thoughts from those individuals that are dealing with it hands 
on.
    But I think it is important for us to understand that we 
here, and the chairman has had a number of hearings surrounding 
this issue of enforcement of immigration laws, and we have had 
the Department that have come forth, I mean, ICE has come 
forth, ``Oh, we can do the 2,000 agents, no problem in training 
them,'' okay. I would even go as far as stretching out if we 
were to have the Customs and Border Protection, ``Oh, sure, we 
can do that. That is no problem. We can handle it.''
    As a matter of fact, we had a director of the Academy from 
Georgia, Glencoe, who was here, the director, who said that we 
can do it, no problem.
    The real issue is making sure, yes, to train law 
enforcement officers is a good thing to recognize things, drug 
traffickers in the Florida Highway Patrol. I went to training 
for that, I went to training for drug recognition expert. But, 
see, I was a state trooper and we were going after the 
individuals that were speeding and running, like the Major 
talked about, traffic lights, also drug traffickers that are 
out there.
    Some of the investigative issues that we need for a 
strategic counterterrorism work out there are for these law 
enforcement agencies that they focus on individuals of 
interest. If you are working in an airport and you were to 
train airport officers, to be able to recognize individuals 
that may be on the watch list or to be able to see activity 
where you say, ``Wow, something is not right about this guy 
with the backpack in a transit area and we just had a 
problem.'' Those kind of individuals I can understand it.
    When we start getting out into the general law enforcement 
community, and it is good to have as many eyes and feet out 
there as possible, then we have issues.
    I am not here to debate the issues. I am just here to say 
these are some of the thoughts that we need to have in our 
minds as we move forward. Every member voted for the amendment 
to add more money to this program, even on the floor. Pretty 
much every member of the committee, I am not sure, I have not 
pulled the voting sheet, voted for the authorization bill that 
authorized even more money going toward it.
    And so as we look at this, Mr. Chairman, I am just going to 
say this in closing, because I do not need an answer to this 
statement, I think that it will be important for us to continue 
to bring local law enforcement individuals to the table and ask 
them what they may need from us, what are some of the issues 
that they found, even after if we were to get this money to 
them and they were to be able to do the backfill and be able to 
pay the overtime and do all of these issues that are there.
    From what I understand, this money can be used for overtime 
and court costs, I guess. Because this is going to be a 
preventive maintenance kind of thing. And you are right, 
attrition is a reality in every job, but it is important that 
we police this thing appropriately, and I will use that word, 
``police it,'' for the longevity of the program if we are going 
to keep integrity there of the program so that individuals are 
not stretched thin like in community policing. Community 
policing dollars are no longer there like they used to be. Now 
we have other issues that are out there. And so I think that is 
very, very important.
    So, Mr. Chairman, I am glad that we did have this hearing. 
I am glad that you continue to--I should have said this when 
the Major was here from Alabama--this is something that you 
feel very strongly about. You have not only talked with staff 
but with me on the subject and the Florida and the Florida 
legislature.
    We were the second state in the Union to pass legislation 
as it relates to homeland security. I served on that committee, 
know the professionalism of the Florida Department of Law 
Enforcement. It is ironic that you would be the chairman and I 
would be the ranking member, and it would be the only two 
states in the program.
    But I will tell you this, for this program to stand, and I 
think as it relates to the muster of the courts, and I am 
willing to see what may happen, as it relates to decisions and 
these state law enforcement officers that are trained, if 
someone was to challenge their authority to do it, and you have 
addressed that in your testimony about how this would actually 
work. And you spoke toward immunity. I think law enforcement 
officers have some level of protections as it relates to 
sovereign immunity. But when we start talking about civil, I do 
not know exactly where we are.
    And, in closing, Mr. Chairman, I know I am asking quite a 
bit of latitude, but can you address the immunity issue? I do 
not know if such a thing can be given through federal statute. 
I do not think it can. I think it is a very touchy area. Anyone 
on the panel could try to address that a little further. And, 
you know, individuals who believe in individual rights may have 
an issue with that too.
    Mr. Kobach. Well, I could just say you are right that 
complete immunity is virtually impossible to provide. If an 
officer does something that constitutes a violation of 
someone's constitutional rights, no statutory immunity is going 
to prevent the officer from suffering some consequences from 
that. So immunity is a word that has many meanings.
    Chief Fawcett. If I might, on the part of IACP and probably 
we should have done a better job in our concluding remarks when 
we were talking about those concerns of ours that had been 
addressed. And, certainly, the liability issue in some part 
because of cross-deputization, has addressed some of those 
concerns.
    And of course, like my colleague here said, that as long as 
they are acting within the scope of their authority, protection 
should be there. But for those who act outside the scope of 
their authority are committing illegal acts and there should 
not be protection there.
    Mr. Rogers. Gentleman yields back.
    I would like to revisit one point and emphasize it, and 
that is what we heard from our earlier panelists and we have 
heard echoed in Dr. Kobach's remarks is, this has been a very 
effective program for the states that have utilized it and also 
in Los Angeles in the one county that we have had a pilot 
program.
    And what I have discerned from the remarks of the panelists 
is that these states were willing to take the money out of 
their hide and participate even though they were not reimbursed 
for backfill, because they saw the inherent benefit in making 
their community safer by participating in this.
    These are really bad people that we are trying to find. It 
is important for our national security but it is also for these 
state and communities' security as well.
    With that, I want to thank the witnesses for their 
testimony. It has been very helpful, and I appreciate you being 
here, taking time out of your busy schedule.
    I would remind the witnesses that there may be members of 
the committee who have questions that were not here, had to 
leave, that they would want to submit to you, and the record 
will be left open for 10 days. If members do have questions, I 
would ask that you write a response in writing and submit it 
back for the record.
    And with that, and without objection, this committee 
hearing is adjourned.
    [Whereupon, at 12:57 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
